              Audit Report



  Single Decisionmaker Model—
Authority to Make Certain Disability
 Determinations Without a Medical
      Consultant’s Signature




       A-01-12-11218 | August 2013
MEMORANDUM


Date:      August 8, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Single Decisionmaker Model—Authority to Make Certain Disability Determinations Without a
           Medical Consultant’s Signature (A-01-12-11218)

           The attached final report presents the results of our audit. Our objective was to gather
           information on the Social Security Administration’s Single Decisionmaker pilot for the Agency
           to use when it decides whether to expand or terminate the pilot.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Single Decisionmaker Model—Authority to Make Certain
Disability Determinations Without a Medical Consultant’s
Signature
A-01-12-11218
August 2013                                                                Office of Audit Report Summary

Objective                                  Our Findings

To gather information on the Social        Our review of 3,900 sample cases from the SDM prototype, SDM
Security Administration’s (SSA)            II and Non-SDM sites showed initial claim processing times were
Single Decisionmaker (SDM) pilot for       shorter in SDM sites than in the Non-SDM sites.
the Agency to use when it decides
whether to expand or terminate the         The 20 pilot sites, as well as the National Association of Disability
pilot.                                     Examiners and the National Council of Disability Determination
                                           Directors, provided feedback on the SDM model. These entities
Background                                 noted improved public service, DDS case processing times, and
                                           employee morale.
SSA’s SDM model authorizes
disability examiners to make certain       We noted evidence of SDM-user positive feedback and decreased
initial determinations without requiring   case processing times for initial disability claims with the use of
a medical or psychological                 SDM. However, based on SSA studies showing higher initial and
consultant’s signature.                    overall (after all appeals) disability allowance rates with the use of
                                           SDM, the Office of the Chief Actuary (OCACT) estimated
In 1999, SSA started the SDM pilot in      significant program benefit savings to the Trust and General Funds
10 disability determination services       with the gradual termination of the SDM pilot. On July 25, 2013,
(DDS) sites—referred to as SDM             SSA published a Federal Register notice announcing the extension
prototype. Later in 1999, SSA              of the SDM pilot through September 26, 2014. Over the coming
expanded the pilot to an additional        year, SSA will be exploring how to proceed beyond
10 DDS sites—referred to as SDM II.        September 2014.
Therefore, 20 DDSs participated in the
SDM pilot. The remaining 34 DDSs           Our Recommendation
and Federal units did not have SDM
authority.                                 We recommend that SSA use the information in this report, as well
                                           as any other information (such as OCACT’s estimates), to make
                                           and implement a decision regarding the future of SDM
                                           expeditiously.

                                           SSA agreed with the recommendation.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................4
     Sample Case Results: DDS Processing Times..........................................................................5
     Sample Case Results: Allowance Rates ....................................................................................6
     SDM Sites’ Quality ..................................................................................................................10
     SDM User Feedback ................................................................................................................11
     Program Savings ......................................................................................................................11
     Next Steps ................................................................................................................................12
Conclusion .....................................................................................................................................12
Recommendation ...........................................................................................................................12
Agency Comments .........................................................................................................................12
Appendix A – The Social Security Administration’s Appeals Process for Disability Claims ... A-1
Appendix B – Scope, Methodology, and Sample Results.......................................................... B-1
Appendix C – Pilot Feedback from Disability Determination Services, the National Association
           of Disability Examiners and the National Council of Disability Determination
           Directors................................................................................................................. C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)
ABBREVIATIONS
AC                  Appeals Council

ALJ                 Administrative Law Judge

CE                  Consultative Examination

C.F.R.              Code of Federal Regulations

CY                  Calendar Year

DDS                 Disability Determination Services

Fed. Reg.           Federal Register

FY                  Fiscal Year

MC                  Medical Consultant

NADE                National Association of Disability Examiners

NCDDD               National Council of Disability Determination Directors

OCACT               Office of the Chief Actuary

ODAR                Office of Disability Adjudication and Review

ODD                 Office of Disability Determinations

ODP                 Office of Disability Programs

OQP                 Office of Quality Performance

PER                 Preeffectuation Review

POMS                Program Operations Manual System

QA                  Quality Assurance

SDM                 Single Decisionmaker

SSA                 Social Security Administration

U.S.C.              United States Code




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)
OBJECTIVE
Our objective was to gather information on the Social Security Administration’s (SSA) Single
Decisionmaker (SDM) pilot for the Agency to use when it decides whether to expand or
terminate the pilot.

BACKGROUND
In SSA’s disability programs, 1 the SDM model authorizes disability examiners to make certain
initial determinations without requiring a medical or psychological consultant’s (MC) signature. 2
In addition, the SDM model allows disability examiners to decide when to involve MCs in
complex claims. For some claims, such as mental impairment denials, policy requires an MC’s
signature. 3 SSA intended for the SDM model to allow adjudicating components to use disability
examiner and MC resources more effectively and provide faster determinations. 4

In 1993, SSA proposed allowing disability examiners to make disability determinations without
an MC’s signature. 5 In 1995, after receiving and addressing public comments on this proposal,
the Agency finalized the rules for the SDM model. 6 From 1996 to 1999, SSA tested the SDM
model at select sites and determined the model to be effective. 7 Therefore, the Agency started




1
  SSA provides Disability Insurance and Supplemental Security Income disability payments to eligible individuals
under Titles II and XVI of the Social Security Act, see §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and
1382 et seq. Disability determination services (DDS) make disability determinations for SSA. DDS staff obtains
relevant medical evidence, evaluates the case, and determines whether the claimant is disabled under SSA’s criteria.
DDSs are in each of the 50 States plus the District of Columbia, Guam, Puerto Rico, and the U.S. Virgin Islands.
Social Security Act §§ 221(a)(2) and 1633(a), 42 U.S.C. §§ 421(a)(2) and 1383(b). See also, 20 C.F.R. §§ 404.1603
and 416.1003.
2
 20 C.F.R. §§ 404.906(b)(2) and 416.1406(b)(2). See also SSA, POMS, DI 12015.100 B1 (April 11, 2011). MCs
can be physicians, psychologists, optometrists, podiatrists, or speech-language pathologists. 20 C.F.R. §§ 404.1616
and 416.1016. See also SSA, POMS, DI 24501.001 B1 (October 24, 2011).
3
 An MC’s signature is required for all less than favorable determinations involving a mental impairment and all
Title XVI childhood disability claims. SSA, POMS, DI 12015.100 (April 11, 2011).
4
 SSA, Office of Quality Performance (OQP), Estimating the Effects of National Implementation of Single Decision
Maker, March 2010.
5
    Testing Modifications to the Disability Determination Procedures, 58 Fed. Reg. 54,532 (October 22, 1993).
6
    Testing Modifications to the Disability Determination Procedures, 60 Fed. Reg. 20,023 - 20,026 (April 24, 1995).
7
 Testing Modifications to the Disability Determination Procedures; Test Sites for Single Decisionmaker Model,
61 Fed. Reg. 19,969 (May 3, 1996). Testing Modifications to the Disability Determination Procedures; Disability
Determination Services Full Process Model with Rational Summary, 63 Fed. Reg. 58,444 (October 30, 1998).



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                        1
the SDM pilot at 10 DDS sites—referred to in this report as SDM prototype. 8 Later in 1999,
SSA expanded the pilot to an additional 10 DDS sites—referred to as SDM II. 9 Therefore,
20 DDSs participated in the SDM pilot. See Figure 1.

                                           Figure 1: SDM Pilot Sites




8
  The 10 SDM prototype sites include DDSs in Alabama, Alaska, California (Los Angeles North and West),
Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania. SSA, POMS,
DI 12015.100 (April 11, 2011). In California, SDM authority was generally only available for certain field office
cases. If a claimant disagrees with the initial disability determination, he/she can file an appeal within 60 days of the
date of determination notification. Generally, there were three levels of administrative appeal: reconsideration by
the DDS, a hearing by an administrative law judge (ALJ), and a review by the Appeals Council (AC). However, in
SDM prototype sites, a hearing is the first step in the claimant appeal’s process. After completing the administrative
review process, dissatisfied claimants may appeal to the Federal Courts. See Appendix A for SSA’s appeals process
details.
9
 The 10 SDM II sites include DDSs in Florida, Guam, Kansas, Kentucky, Maine, Nevada, North Carolina,
Vermont, Washington, and West Virginia. SSA, POMS, DI 12015.100 (April 11, 2011). If a claimant disagrees
with the initial disability determination, he/she can file an appeal within 60 days from the date of determination
notification. In SDM II sites, the reconsideration step is the first step in the claimant’s appeals process.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                        2
For over 10 years, SSA extended the SDM pilot several times. 10 The Agency collected limited
management information to assess the pilot’s effectiveness, such as tracking SDM authority
usage rates based on the DDS’ coding of disability determination forms. Also, in March 2010,
OQP reported the SDM pilot resulted in a small increase in initial allowance rates and a small
decrease in DDS processing time. 11 As of August 2012, when we began our review, SSA had
not decided to discontinue or expand the SDM pilot to the remaining 34 DDSs or Federal units. 12

To conduct our review, we identified two groups of initial disability claims adjudicated in
Calendar Year (CY) 2011:

1. 297,662 claimants whose primary diagnosis was a back disorder and who did not have a
   mental impairment as a secondary diagnosis. We selected this impairment because it was the
   most frequent disability diagnosis in the CY 2011 file of initial claims.

2. 29,586 claimants with genito-urinary as the primary body system affected without a mental
   impairment as a secondary diagnosis. We selected these claims based on SSA staff input to
   supplement our back disorder claims sample. 13

From each group of initial claimants, we identified 3 populations (SDM prototype, SDM II, and
Non-SDM sites) and randomly sampled 1,100 back disorder and 200 genito-urinary cases from
each population to review. 14 Therefore, we reviewed 3,900 cases. See Table 1.

Since our review was limited to back disorder and genito-urinary sample cases, the results do not
represent all disability claims or all SDM cases.




10
  Modifications to the Disability Determination Procedures; Extension of Disability Claims Process Redesign
Prototype and Test of Single Decisionmaker Model, 66 Fed. Reg. 67,347 - 67,348 (December 28, 2001).
Modifications to the Disability Determination Procedures; Extension of Testing of Some Disability Redesign
Features, 67 Fed. Reg. 42,594 - 42,595 (June 24, 2002); 67 Fed. Reg. 75,895 (December 10, 2002); 68 Fed. Reg.
38,737 - 38,738 (June 30, 2003); 68 Fed. Reg. 68,963 (December 10, 2003); 70 Fed. Reg. 56,204 - 56,205
(September 26, 2005); 71 Fed. Reg. 45,890 - 45,891 (August 10, 2006); 74 Fed. Reg. 48,797 (September 24, 2009);
77 Fed. Reg. 35,464 (June 13, 2012); and 78 Fed. Reg. 45,010 - 45,011 (July 25, 2013).
11
     SSA OQP, Estimating the Effects of National Implementation of Single Decision Maker, March 2010.
12
 SSA’s Federal units assist DDSs with processing initial disability claims and include the Offices of Central
Operations, International Operations, and Medical and Vocational Expertise, as well as 10 Federal disability units.
13
  SSA categorizes impairments into body systems. SSA, POMS, DI 26510.015 F (March 4, 2013). For example,
the genito-urinary body system includes impairments such as chronic renal failure, disorders of the urinary tract, and
disorders of the male or female organs. SSA, POMS, DI 28085.125 C (July 26, 2012).
14
     Non-SDM sites consist of the remaining 34 DDSs not participating in the pilot and SSA’s Federal units.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                       3
                                    Table 1: Populations and Samples
           Case Primary Impairment                  Population Type             Population         Sample
                                             SDM Prototype Sites                   73,638           1,100
                                             SDM II Sites                          51,670           1,100
        BACK DISORDER
                                             Non-SDM Sites                        172,354           1,100
                                                                   Sub-total      297,662           3,300
                                             SDM Prototype Sites                    7,091             200
                                             SDM II Sites                           5,147             200
        GENITO-URINARY
                                             Non-SDM Sites                         17,348             200
                                                                   Sub-total       29,586             600
                                                                   TOTAL          327,248           3,900

For each sample case, we calculated the DDS processing times and gathered information on the
case such as MC involvement, consultative examinations (CE) purchased, and appeals to the
reconsideration and hearing levels. 15

In addition, we contacted SSA's OQP and its Offices of the Actuary (OCACT); Disability
Determinations; Disability Programs; Program Development and Research; Research, Evaluation
and Statistics; Disability Adjudication and Review (ODAR), as well as DDS administrators to
discuss the SDM pilot. We also obtained information from the National Association of
Disability Examiners (NADE) and National Council of Disability Determination Directors
(NCDDD). 16 (See Appendix B for our scope, methodology, and sample results.)

RESULTS OF REVIEW
We gathered SDM pilot information to assist SSA in deciding whether to expand or terminate
the pilot. We shared the preliminary results of our review with the Agency on October 17, 2012
and January 16, 2013.




15
  We did not control for case attributes such as secondary impairment, age, years of education, regulation basis,
program Title (II or XVI), medical evidence, consultative examinations purchased, processing site, or SDM
authority usage by site.
16
  NADE’s mission is to advance the art and science of disability evaluation. NADE’s membership includes
employees of State DDSs as well as personnel from across SSA, attorneys, claimant advocates, and physicians.
NCDDD’s mission is to provide service to persons with disabilities; promote the interests of the state operated
DDSs; and represent DDS Directors, their management teams, and staffs.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                     4
SDM users provided positive feedback. and our analysis showed decreased processing times for
initial disability claims; however, OCACT’s preliminary estimate showed significant savings to
the Trust Fund and General Fund if SSA gradually terminated the SDM pilot. 17 On
July 25, 2013, SSA published a Federal Register notice announcing the extension of the SDM
pilot through September 26, 2014. Over the coming year, SSA will be exploring how to proceed
beyond September 2014. 18

Sample Case Results: DDS Processing Times
                                                   We found that SDM sites processed cases sooner than
                                                   Non-SDM sites (see Figure 2). Specifically, we
                                                   found that SDM sites processed
       SDM Cases Processed
       Sooner                                      · back disorder cases, on average, 26 days sooner
                                                   than Non-SDM sites; 19

·    genito-urinary cases, on average, 11 days sooner than Non-SDM sites; 20

·    back disorder cases without an MC signature, on average, 38 days sooner than Non-SDM site
     cases with an MC signature; and

·    genito-urinary cases without an MC signature, on average, 22 days sooner than Non-SDM
     site cases with an MC signature.

Since our review was limited to back disorder and genito-urinary sample cases, the results do not
represent all disability claims or all SDM cases.




17
   OCACT estimates and analyzes potential changes to SSA’s programs, such as discontinuing the SDM pilot. In
addition, OCACT conducts studies of program financing, performs actuarial and demographic research on program
issues, and projects future workloads. SSA pays benefits to disabled workers and their families from the Disability
Insurance Trust Fund. SSA issues disability payments to eligible Supplemental Security Income recipients from the
General Fund.
18
  Modifications to the Disability Determination Procedures; Extension of Testing of Some Disability Redesign
Features, 78 Fed. Reg. 45,010 - 45,011 (July 25, 2013).
19
  Using inferential statistical techniques and assuming the average overall processing time of the DDS back
disorder case population was normally distributed, we are 90-percent confident the average overall processing time
would be between 73 and 81 days at SDM prototype sites; 66 and 76 days at SDM II sites; and 94 and 105 days at
Non-SDM sites.
20
   Using inferential statistical techniques and assuming the average overall processing time of the DDS
genito-urinary case population was normally distributed, we are 90-percent confident the average overall processing
time would be between 52 and 60 days at SDM prototype sites; 48 and 58 days at SDM II sites; and 60 and 69 days
at Non-SDM sites.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                      5
             Figure 2: Initial Claims Average Processing Times (Days) from DDS Receipt to
                                          Determination Date

                                 SDM Prototype Sites              SDM II Sites          Non-SDM Sites
            120
            100
                                  100
             80
     DAYS




             60       77
                            71                    67                                   65
             40                                         57                  56    53
                                                                                                      42   44
             20
                                                              0                                                   0
              0
                  Back Disorder: All Cases    Back Disorder: SDM Site Genito-Urinary: All Cases Genito-Urinary: SDM Site
                                             Cases without MC Signature                         Cases without MC Signature



SDM sites also reported reduced processing times because disability examiners reviewed simple
cases without involving MCs. For example, one pilot site reported that, in Fiscal Year
(FY) 2012, processing times for claims adjudicated with SDM authority averaged 56 days, while
processing time for claims adjudicated without SDM authority averaged 76 days. 21 Furthermore,
another pilot site reported that, when comparing experienced disability examiners, disability
examiners with SDM authority processed cases 35 days faster than disability examiners without
SDM authority.

Sample Case Results: Allowance Rates
In our back disorder sample cases, initial allowance rates were highest in the SDM prototype
sites, as were the allowance rates through the hearing level. In our genito-urinary sample cases,
initial allowance rates were highest in the Non-SDM Sites, as were the allowance rates through
the hearing level. See Table 2 and Table 3.




21
  In SDM sites, disability examiners process cases (a) with SDM authority and not requiring an MC signature or
(b) without SDM authority and requiring an MC signature. For some claims, such as mental impairment denials,
policy requires an MC signature.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                              6
              Table 2: Disability Determinations and Appeals - Back Disorder Cases 22
                                                                     SDM Prototype           SDM II       Non-SDM
                                                                         Sites                Sites         Sites
 Number of Sample Cases                                                        1,100             1,100        1,100
 Initial Allowances                                                              369                276         340
 Initial Allowance Rate                                                         34%               25%          31%
 Initial Denials                                                                 731                824         760
 Initial Denials Appealed to Reconsideration                                     N/A                501         446
 Percentage of Initial Denials Appealed to Reconsideration                       N/A              61%          59%
 Reconsideration Allowances 23                                                     N/A               40            53
 Reconsideration Allowance Rate                                                    N/A              8%           12%
 Reconsideration Denials                                                           N/A              461           393
 Initial Denials Appealed Directly to Hearing (SDM Prototype)                      438             N/A           N/A
 Reconsideration Denials Appealed to Hearing                                       N/A              394           341
 Percentage of Reconsideration Denials Appealed to Hearing                         N/A             85%           87%
 Hearings Pending as of July 2013                                                   20               43            45
 Hearing Allowances                                                                261              198           189
 Hearing Allowance Rate                                                           62%              56%           64%
 Hearing Denials 24                                                                157              153           107
 Hearing Denials Appealed to AC 25                                                  71               70            38
 Percentage of Hearing Denials Appealed to AC                                     45%              46%           36%
 AC Reviews Pending as of July 2013                                                  46              60            31
 AC Allowances                                                                        0               0             0
 AC Allowance Rate                                                                  0%              0%            0%
 AC Denials                                                                          25              10             7
 Overall Allowance Rate Through AC 26                                             61%              52%           57%

We did not test for the causes in the variations between allowance rates in the three populations.
However, the allowance rate variations for our sample cases were similar to the allowance rate
variations for all cases nationwide, including all impairments and all types of claims—SDM and
Non-SDM. The initial allowance rates for all claims in CY 2011 was 35 percent in the SDM


22
   We did not determine whether the difference in allowance rates through the AC level was due to SDM, the
elimination of the reconsideration step in prototype sites, or some other factor.
23
  Prototype sites generally do not process reconsiderations but do process some, such as transfers from
non-prototype sites. None of our SDM prototype sample cases had a reconsideration.
24
     Hearing and AC denials include dismissals and withdrawals.
25
     The AC also reviewed 25 hearing allowances including 6 SDM prototype, 9 SDM II, and 10 Non-SDM cases.
26
  The differences in the overall allowance rates among the three samples were statistically significant at the
0.05 level of significance. Statistical significance is an interpretation of statistical data that indicates that an
occurrence was probably the result of a causative factor and not simply a chance result. A finding of not statistically
significant indicates probable occurrence by chance.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                       7
Prototype sites, 28.8 percent in the SDM II sites, and 33.3 percent in the Non-SDM sites. See
Table B–48 for the initial allowance rates for each DDS. Likewise, for claims filed in CY 2010,
the Overall Allowance Rate was 52.1 percent for closed cases in prototype States, 46.5 percent in
SDM II States, and 50 percent in Non-SDM States, although not all cases had final decisions
when these data were reported. 27 See Table B–49 for more details.

             Table 3: Disability Determinations and Appeals – Genito-Urinary Cases22
                                                                     SDM Prototype           SDM II        Non-SDM
                                                                         Sites                Sites          Sites
 Number of Sample Cases                                                          200                200          200
 Initial Allowances                                                              125                120          133
 Initial Allowance Rate                                                        63%                60%           67%
 Initial Denials                                                                  75                 80            67
 Initial Denials Appealed to Reconsideration                                    N/A                  43            33
 Percentage of Initial Denials Appealed to Reconsideration                      40%               54%           49%
 Reconsideration Allowances                                                        N/A               13             9
 Reconsideration Allowance Rate                                                    N/A             30%           27%
 Reconsideration Denials                                                           N/A               30            24
 Initial Denials Appealed Directly to Hearing (SDM Prototype)                       30             N/A           N/A
 Reconsideration Denials Appealed to Hearing                                       N/A               22            20
 Percentage of Reconsideration Denials Appealed to Hearing                         N/A             73%           83%
 Hearings Pending as of July 2013                                                     1               4            4
 Hearing Allowances                                                                  17              10            8
 Hearing Allowance Rate                                                            59%             56%           50%
 Hearing Denials                                                                     12               8            8
 Hearing Denials Appealed to AC 28                                                    2               4            4
 Percentage of Hearing Denials Appealed to AC                                      17%             50%           50%
 AC Reviews Pending as of July 2013                                                  1               4                4
 AC Allowances                                                                       0               0                0
 AC Allowance Rate                                                                  0%              0%               0%
 AC Denials                                                                          1               0                0
 Overall Allowance Rate through AC 29                                              72%             74%           78%

In our back disorder and genito-urinary sample cases, more claimants who were denied at the
initial level appealed to the hearing level. See Table 4 and Table 5.



27
     SSA, ODP, Titles II and XVI Disability Research Files, July 2012.
28
     The AC also reviewed 3 hearing allowances including 1 SDM prototype, 1 SDM II, and 1 Non-SDM case.
29
  The differences in the overall allowance rates among the three samples were not statistically significant at the
0.05 level of significance.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                       8
                  Table 4: Appeals to the Hearing Level - Back Disorder Cases
                                                           SDM Prototype        SDM II       Non-SDM
                                                               Sites             Sites         Sites
Number of Sample Cases                                               1,100          1,100        1,100
Initial Denials                                                        731             824         760
Initial Denials Appealed to Reconsideration                           N/A              501         446
Reconsideration Denials                                               N/A              461         393
Denials Appealed to Hearing                                             438           394          341
Percentage of Initial Denials Appealed to Hearing                      60%           48%          45%


                Table 5: Appeals to the Hearing Level – Genito-Urinary Cases
                                                           SDM Prototype        SDM II       Non-SDM
                                                               Sites             Sites         Sites
Number of Sample Cases                                                 200             200         200
Initial Denials                                                         75              80           67
Initial Denials Appealed to Reconsideration                           N/A               43           33
Reconsideration Denials                                               N/A               30           24
Denials Appealed to Hearing                                              30            22           20
Percentage of Initial Denials Appealed to Hearing                      40%           28%          30%


For additional case processing details, see Appendix B.
·   Table B–2 to Table B–14 for DDS processing times.
·   Table B–15 to Table B–22 for DDS disability determinations and appeals.
·   Table B–23 to Table B–26 for the number of CEs ordered on initial claims.
·   Table B–27 and Table B–32 for last evidence received dates.
·   Table B–33 and Table B–34 for age of claimants at the time of initial determination.
·   Table B–35 and Table B–36 for initial claims determination reasons.
·   Table B–37 to Table B–46 for results by Title.
·   Table B–47 for sample cases by site.




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)       9
SDM Sites’ Quality
In March 2010, OQP found that SDM appeared to have no statistically significant impact on
either DDS decisional accuracy or overall case deficiency—suggesting that the small increase in
initial allowance rates due to SDM reflected correct and appropriate adjudicative decisions. 30

As shown in Table 6, in FY 2011, the Quality Assurance (QA) Net Accuracy rates for the SDM
sites ranged from 95.4 percent to 99.2 percent—with most at 97 percent or higher, compared to
the 97.6-percent national accuracy rate, ranging from 95.2 percent to 99.2 percent. 31 Also in
FY 2011, the Preeffectuation Review (PER) return rates for the SDM sites ranged from
1.4 percent to 3.9 percent, compared to the national PER return rate of 2.7 percent, ranging from
1.4 percent to 6.5 percent. 32 See Table B–50 for OQP data for all DDSs and Federal units.

We tracked the results of OQP reviews for our randomly selected sample cases. However, since
most OQP reviews were for the PER, which was a non-random sample of allowances, the results
did not provide reliable data for decision-making purposes. Therefore, we did not include that
information in this report.

                         Table 6: SDM Site FY 2011 Quality Performance Data
                                                                          QA Net           PER
                                           Site                          Accuracy         Return
                                                                           Rates          Rates
                    SDM Prototype Sites
                    Alabama                                                   98.1%           1.9%
                    Alaska                                                    97.1%           3.3%
                    California (Los Angeles North and West) 33                97.2%           2.8%
                    Colorado                                                  97.8%           2.0%
                    Louisiana                                                 97.4%           3.9%
                    Michigan                                                  98.2%           2.1%
                    Missouri                                                  98.3%           2.9%
                    New Hampshire                                             98.3%           2.7%
                    New York                                                  96.3%           3.9%
                    Pennsylvania                                              97.4%           2.2%
                    SDM II Sites



30
     SSA OQP, Estimating the Effects of National Implementation of Single Decision Maker, March 2010.
31
  OQP performs a QA review on 70 initial allowances and 70 initial denials per State per calendar quarter. See the
Social Security Act § 221(c)(3)(A), § 42 U.S.C. 421(c)(3)(A). This sample ensures statistically valid findings for all
DDSs irrespective of size.
32
     By statute, OQP reviews half of all allowances for PER, which are selected by a predictive model.
33
     These figures are from all DDS offices in California, including SDM and Non-SDM sites.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                     10
                                                                       QA Net          PER
                                         Site                         Accuracy        Return
                                                                        Rates         Rates
                    Florida                                                97.9%          3.6%
                    Kansas                                                 98.4%          1.5%
                    Kentucky                                               97.9%          2.6%
                    Maine                                                  95.4%          3.1%
                    Nevada                                                 96.9%          2.7%
                    North Carolina                                         97.6%          1.9%
                    Vermont                                                99.2%          1.4%
                    Washington                                             97.9%          2.3%
                    West Virginia                                          96.7%          3.5%

SDM User Feedback
                                           The 20 pilot sites, as well as NADE and NCDDD,
                                           provided feedback on the SDM model. See
                                           Appendix C. These entities noted improved service to
    SDM Sites Reported                     the public, DDS case processing times, and employee
    Offices Maintained                     morale as well as decreased administrative costs to
    Quality and Accuracy                   process disability cases since MCs were not involved
                                           in all claims. SDM sites also reported their offices
maintained disability determination quality and accuracy.

NADE reported that disability examiners with SDM authority maintained exceptional quality,
were recognized for outstanding processing time, and experienced a higher sense of
professionalism and increased morale. NADE and NCDDD also reported that the SDM model
allowed the DDSs to make faster determinations with good quality, lower administrative costs,
and better use of MC resources.

Program Savings
OCACT’s preliminary estimates showed SSA would achieve significant program savings if it
discontinued the SDM pilot. Specifically, OCACT’s preliminary estimate was based on SSA
gradually eliminating the pilot over a 3-year period, which would result in billions of dollars in
SSA program savings from 2015 to 2023—roughly $3 billion in total Old-Age, Survivors and
Disability Insurance savings and $700 million in Supplemental Security Income savings.

According to OQP’s March 2010 report, expanding the SDM model in its present form
nationwide would increase overall disability allowance rates by 0.61 percent. 34 Additionally, the



34
     SSA OQP, Estimating the Effects of National Implementation of Single Decision Maker, March 2010.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)         11
results of our sample case reviews showed the overall allowance rates through the AC level may
be higher in SDM prototype sites. Because of the size of the Disability Insurance program, even
a modest change in disability allowance rates significantly affects program costs.

Next Steps
On July 25, 2013, SSA published a Federal Register notice announcing the extension of the
SDM pilot through September 26, 2014. Over the coming year, SSA will be exploring how to
proceed beyond September 2014.

CONCLUSION
We gathered SDM pilot information to assist SSA in deciding whether to expand or terminate
the pilot. We shared the preliminary results of our review with the Agency on October 17, 2012
and January 16, 2013.

We noted evidence of SDM-user positive feedback and decreased case processing times for
initial disability claims with the use of SDM. However, based on SSA studies showing higher
initial and overall (after all appeals) disability allowance rates with the use of SDM, OCACT
estimated significant savings to the Trust and General Funds with the gradual termination of the
SDM pilot. SSA extended the SDM pilot through September 26, 2014 and will explore how to
proceed beyond that timeframe.

RECOMMENDATION
We recommend that SSA use the information in this report, as well as any other information
(such as OCACT’s estimates) to make and implement a decision regarding the future of SDM
expeditiously.

AGENCY COMMENTS
SSA agreed with the recommendation; see Appendix D.




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   12
                                      APPENDICES




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)
Appendix A – THE SOCIAL SECURITY ADMINISTRATION’S
             APPEALS PROCESS FOR DISABILITY CLAIMS
The Social Security Administration (SSA) provides Disability Insurance and Supplemental
Security Income disability benefits to eligible individuals under Titles II and XVI of the Social
Security Act. 1 To receive either benefit, an individual must first file an application with SSA.
An SSA field office representative then determines whether the individual meets the non-medical
criteria for benefits 2 and, if so, generally forwards the claim to a State disability determination
services (DDS) for a disability determination.

At the DDS, a disability examiner, using SSA’s regulations, policies, and procedures, obtains the
relevant medical evidence, evaluates the case, and determines whether the claimant is disabled
under the Social Security Act. 3 The disability examiner generally works with a medical
consultant (MC), physician, and/or psychologist, to make the disability determination. At DDSs
participating in the single decisionmaker (SDM) pilot, 4 a disability examiner with SDM authority
can generally make the disability determination without an MC’s signature. 5

If a claimant disagrees with the initial disability determination, he/she can file an appeal within
60 days of the date of determination notification. Generally, there are three levels of
administrative appeal: reconsideration by the DDS, a hearing by an administrative law judge
(ALJ), and a review by the Appeals Council (AC). However, in SDM prototype sites, a hearing
is the first step in the claimant appeal’s process. 6 After completing the administrative review
process, dissatisfied claimants may appeal to the Federal Courts.

See Table A–1 for claimant appeal-level descriptions and Figure A–1 for appeals process
comparison between SDM prototype and all other sites.




1
    Social Security Act §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and 1382 et seq.
2
    Non-medical requirements for Social Security Disability Insurance benefits include employment and marital status.
3
 DDSs make disability determinations for SSA and are in each of the 50 States plus the District of Columbia,
Guam, Puerto Rico, and the U.S. Virgin Islands. Social Security Act §§ 221(a)(2) and 1633(a), 42 U.S.C.
§§ 421(a)(2) and 1383(b). See also, 20 C.F.R. §§ 404.1603 and 416.1003.
4
 There are 20 DDSs participating in the SDM pilot including 10 prototype sites in Alabama, Alaska, California (Los
Angeles North and West), Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania;
and 10 SDM II sites in Florida, Guam, Kansas, Kentucky, Maine, Nevada, North Carolina, Vermont, Washington,
and West Virginia. SSA, POMS, DI 12015.100 (April 11, 2011).
5
 An MC’s signature is required for all less than favorable determinations involving a mental impairment and
Title XVI childhood disability claims. SSA, POMS, DI 12015.100 (April 11, 2011).
6
 As part of the pilot in prototype sites, SSA eliminated the reconsideration step of the claimant appeals process.
SSA, POMS, DI 12015.100 (April 11, 2011).



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                      A-1
                                   Table A–1: Claimant Appeal Levels
    Appeal Level                                              Description
                      If a claimant disagrees with the initial DDS’ decision, he/she may ask for a reconsideration
                      (except in prototype sites). Reconsideration is a complete review of the claim by someone
    Reconsideration
                      who did not take part in the initial determination. The reconsideration disability examiner
                      will consider all the evidence for the initial determination plus any new evidence.
                      If a claimant disagrees with the reconsideration determination (or the initial determination in
                      prototype sites), he/she may request a hearing by an ALJ.
                      An ALJ generally conducts a hearing at a hearing office. Before the hearing, the claimant
                      and his/her representative may examine the evidence used in making the determination under
                      appeal and submit new evidence. At the hearing, the ALJ can question the claimant and any
                      witnesses the claimant brings. The ALJ may request other witnesses, such as medical or
                      vocational experts, to testify at the hearing. The claimant and his/her representative may also
                      question the witnesses.
       Hearing        The ALJ does not determine whether the DDS’ decision was correct but issues a new
                      (de novo) decision based on the evidence. If the claimant waives the right to appear at the
                      hearing, the ALJ makes a decision based on the evidence on file and any new evidence
                      submitted for consideration.
                      Under certain circumstances, an attorney advisor may conduct prehearing proceedings before
                      the hearing. As part of the prehearing proceedings, the attorney advisor, in addition to
                      reviewing the existing record, may request additional evidence and schedule a conference
                      with the parties. After these proceedings are completed, if the attorney advisor can make a
                      decision that is fully favorable, he/she may issue the decision. 7
                      If a claimant disagrees with the hearing decision, he/she may ask for a review by the AC.
                      The AC consists of administrative appeal judges and appeal officers. The AC may deny,
                      dismiss, or grant a request for review. If the AC denies or dismisses the request for review,
        Appeals       the hearing office decision becomes SSA’s final decision. If the AC grants the request for
        Council       review, it can (1) issue its own decision affirming, modifying, or reversing the hearing office
                      decision or (2) remand the case to the hearing office for a new decision, additional evidence,
                      or other action. If the AC issues its own decision, that decision becomes SSA’s final
                      decision. The AC may also review a case within 60 days of the hearing office decision on its
                      own motion; that is, without a claimant requesting the review.
                      If a claimant is dissatisfied with SSA’s final decision, he/she may file a civil action with the
                      following Federal Courts in this order: U.S. District Court, U.S. Court of Appeals (Circuit
                      Court), and U.S. Supreme Court. Federal Courts have the power to dismiss, affirm, modify,
     Federal Court
                      or reverse SSA’s final decisions and may remand cases to SSA for further action, including a
                      new decision. If SSA’s final decision is supported by “substantial evidence” and consistent
                      with the Social Security Act, the court should affirm the decision.




7
    20 C.F.R. §§ 404.942 and 416.1442.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                     A-2
  Figure A–1: Disability Appeals Process Comparison Between SDM Prototype Sites and
                                      Other Sites




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   A-3
Appendix B – SCOPE, METHODOLOGY, AND SAMPLE RESULTS
To achieve our objective, we:

·   Reviewed applicable sections of the Social Security Act and Social Security Administration’s
    (SSA) regulations, policies, and procedures.

·   Reviewed our July 2011 report, The Effects of the Electronic Claims Analysis Tool
    (A-01-11-21193).

·   Obtained a data file of all disability determinations issued in Calendar Year (CY) 2011.
    Through data analysis, we identified 2 groups of initial claims. Specifically, we identified:

    1. 297,662 claimants whose primary diagnosis was a back disorder (diagnosis code 7240)
       but who did not have a mental impairment as a secondary diagnosis. We selected back
       disorder claims because it was the most frequent disability diagnosis in the CY 2011
       initial claims file.

    2. 29,586 claimants with genito-urinary (body system code 6) as the primary body system
       affected without a mental impairment as a secondary diagnosis. We selected these claims
       based on SSA input to supplement our back disorder sample. 1

·   Identified three populations—Single Decisionmaker (SDM) prototype, SDM II, and
    Non-SDM sites 2—from each group of initial claims adjudicated in CY 2011 and randomly
    sampled 1,100 back disorder and 200 genito-urinary cases from each population for review.
    Therefore, we reviewed 3,900 cases. 3 See Table B–1.




1
  SSA categorizes impairments into body systems. SSA, POMS, DI 26510.015 F (March 4, 2013). For example,
the genito-urinary body system includes impairments such as chronic renal failure, disorders of the urinary tract, and
disorders of the male or female organs. SSA, POMS, DI 28085.125 C (July 7, 2012).
2
  In 1999, SSA began the SDM pilot in 10 disability determination services (DDS) sites—referred to as SDM
prototype—and simultaneously eliminated the reconsideration step of the claimant appeals process. The 10 SDM
prototype sites include DDSs in Alabama, Alaska, California (Los Angeles North and West), Colorado, Louisiana,
Michigan, Missouri, New Hampshire, New York, and Pennsylvania. In California, SDM authority is generally only
available for certain field office cases. Later in 1999, SSA expanded the pilot to an additional 10 DDS sites—
referred to as SDM II—yet kept the reconsideration step of the appeal process. The 10 SDM II sites include DDSs
in Florida, Guam, Kansas, Kentucky, Maine, Nevada, North Carolina, Vermont, Washington, and West Virginia.
SSA, POMS, DI 12015.100 (April 11, 2011). Non-SDM sites consist of the remaining 34 DDSs as well as Federal
units that assist DDSs with processing initial disability claims.
3
 In SDM sites, disability examiners process cases (a) with SDM authority and not requiring an MC signature or
(b) without SDM authority and requiring an MC signature. For some claims, such as mental impairment denials,
policy requires an MC signature.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                   B-1
                                  Table B–1: Populations and Samples

           Case Primary Impairment                 Population Type              Population        Sample

                                             SDM Prototype Sites                  73,638           1,100
                                             SDM II Sites                         51,670           1,100
       BACK DISORDER
                                             Non-SDM Sites                       172,354           1,100
                                                                   Sub-total     297,662            3,300
                                             SDM Prototype Sites                   7,091             200
                                             SDM II Sites                          5,147             200
       GENITO-URINARY
                                             Non-SDM Sites                        17,348             200
                                                                   Sub-total      29,586             600
                                                                   TOTAL         327,248           3,900

·   Removed all Title XVI child claims from each population because these claims require a
    Medical Consultant’s (MC) signature.

·   Replaced 47 back disorder and 214 genito-urinary sample cases that had expedited
    processing (such as Quick Disability Determination and Compassionate Allowance cases) 4 or
    did not have an electronic claims folder where we could review the disability adjudication
    details.

·   Reviewed SSA’s electronic claims folder for each sample case and documented

             o whether the DDS allowed or denied the case,
             o the DDS’ initial determination reason,
             o whether the DDS determinations were appealed,
             o the number of consultative examinations (CE) purchased, and
             o the date of the last evidence received (for cases denied for failure to cooperate,
               this was the date the claimant did not cooperate; for cases denied for insufficient
               evidence, this was the date DDS determined the evidence was insufficient). 5

·   Calculated DDS processing time and allowance rates.


4
  The Quick Disability Determinations uses a predictive model to identify claims in which it is highly probable the
claimant is disabled and the claimant’s allegations can be easily and quickly verified so the claim can be processed
quickly by the DDS. The Compassionate Allowance process identifies claims electronically involving diseases and
other medical conditions that are so severe that they clearly meet SSA’s definition of disability. Like Quick
Disability Determinations, this process uses a predictive model, but it is simpler—selecting claims based solely on
the claimant’s allegation of having a disease or other medical condition in the Agency’s list of Compassionate
Allowance conditions.
5
 We did not control for secondary impairment, age, years of education, regulation basis, program Title (II or XVI),
medical evidence, CEs purchased, processing site, or SDM authority usage by site.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                  B-2
·   Documented, for each sampled case from the SDM prototype and SDM II populations,
    whether an MC was involved in the initial determination and the disability examiner used
    SDM authority to adjudicate the initial claim.

·   Calculated appeal rates through the Appeals Council (AC) level. As of July 2013, 117
    (9 percent) of the 1,245 claims appealed to an administrative law judge (ALJ) and 146
    (77 percent) of the 189 claims appealed to the AC were still pending. Therefore, the appeal
    allowance rates shown in the Tables are for cases completed (not pending).

·   Calculated allowance rates inclusive of the initial, reconsideration and hearing levels. We
    did not determine whether the difference in allowance rates through the AC level was due to
    SDM or to the elimination of the reconsideration step in prototype sites.

·   Contacted SSA's Offices of the Chief Actuary; Disability Determination (ODD); Disability
    Programs (ODP); Research and Disability Policy; Research, Evaluation and Statistics;
    Disability Adjudication and Review (ODAR); and Quality Performance (OQP) as well as
    DDS Administrators.

·   Obtained information from the National Association of Disability Examiners and the
    National Council of Disability Determination Directors about the SDM pilot status.

·   Estimated Fiscal Year 2012 MC cost savings for the 20 SDM pilot sites.

·   Provided the preliminary results of our case reviews to ODP, ODD, and OQP.

We determined the computer-processed data from the file of all disability determinations issued
in CY 2011 were sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability of the data
and achieve our audit objective.

We conducted our review between August 2012 and July 2013 in Boston, Massachusetts. The
entities audited were ODD under the Deputy Commissioner of Operations and ODP under the
Deputy Commissioner of Retirement and Disability Policy.

We conducted our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Sample Results
For sample results, see:

·   Table B–2 to Table B–14 for DDS processing times;

·   Table B–15 to Table B–22 for allowance and appeal rates;

SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-3
·    Table B–23 to Table B–26 for the number of CEs ordered on initial claims;
·    Table B–27 and Table B–32 for last evidence received dates;
·    Table B–33 and Table B–34 for age of claimants at the time of initial determination;
·    Table B–35 and Table B–36 for initial claims determination reasons;
·    Table B–37 to Table B–46 for results by Title; and,
·    Table B–47 for sample cases by site.

Since our review was limited to back disorder and genito-urinary sample cases, the results are
not representative of all disability claims or all SDM cases.

Processing Times
              Table B–2: Average Sample Case Initial Processing Time (Days) by Site
                                Back Disorder Cases                          Genito-Urinary Cases
                                                       Average                          Average         Average
                                Average    Average                            Average
                      Number                             Days     Number                  Days            Days
                                 Days     Days from                            Days
                        of                            from Last     of                    from         from Last
       Site                      from     Examiner                             from
                      Sample                           Evidence   Sample                Examiner        Evidence
                                Receipt   Assigned                            Receipt
                       Cases                           Received    Cases                Assigned        Received
                                 Date       Date                               Date
                                                                                          Date
SDM Prototype Sites
Alabama                    95        71          70           8         20         34             34          6
Alaska                      8        82          82           8          1         37             37         24
California (Los
Angeles North and
West)                      45       107         106          11         13         67             67          8
Colorado                   70        98          98          22         13         55             52         16
Louisiana                  97        68          68          10         17         50             49         13
Michigan                  171        91          79          19         31         73             61         15
Missouri                  124        73          73          11         18         61             61         17
New Hampshire              12        90          85          23          2         65             59          8
New York                  269        66          65           8         47         48             48          7
Pennsylvania              209        74          70          10         38         60             57         11
SDM II Sites
Florida                   416        51          45           6         81         35          30             5
Guam                        1        60          60          12          1        123         123            11
Kansas                     24        81          75          10          8         40          38             5
Kentucky                  148        81          78          21         23         61          61            20
Maine                      26        82          76          31          3         56          48            17
Nevada                     55       129         109          21         12         75          64            10
North Carolina            238        83          83          18         47         75          75            13
Vermont                    14        51          50          11          3         37          32             8
Washington                144        72          67          15         17         47          42            11


SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)        B-4
                                Back Disorder Cases                          Genito-Urinary Cases
                                                       Average                          Average         Average
                                Average    Average                            Average
                       Number                            Days     Number                  Days            Days
                                 Days     Days from                            Days
                         of                           from Last     of                    from         from Last
        Site                     from     Examiner                             from
                       Sample                          Evidence   Sample                Examiner        Evidence
                                Receipt   Assigned                            Receipt
                        Cases                          Received    Cases                Assigned        Received
                                 Date       Date                               Date
                                                                                          Date
West Virginia              34        90          89          15          5         68             67           6
Non-SDM Sites
Arizona                    22       118          90          13          7         93             64          21
Arkansas                   27        71          69          16          3         25             25          12
Arkansas Extended
Service Team               30       133         132          19          5         76             74          13
Baltimore Disability
Processing Branch          12       209         206          87          1        196         196            166
California
(Excluding Los
Angeles North and
West)                     117        97          97          17         19         62             62          14
Chicago Disability
Processing Branch           5       275         274          48          0          0              0           0
Connecticut                29       105         103          14          1         84             84          29
Dallas Disability
Processing Unit            12       153         151          41          3         43             43          34
Delaware                    9       120         120          24          1         35             35          35
District of Columbia        1        53          43           2          2         32             30           3
Georgia                    41       138         132          22          7         92             85          14
Hawaii                      9       101          94          12          6         32             23          12
Idaho                       4        63          55           9          2         44             26           3
Illinois                   55        83          73          13         14         77             69          15
Indiana                    42        72          69          13          7         29             27           5
Iowa                       11        50          48          14          2         46             45           5
Kansas City Federal
Disability Unit             5        88          88          10          0          0              0           0
Maryland                   25        80          67           6          4         46             43          13
Massachusetts              34        89          87          15          2         52             52           9
Minnesota                  15        52          51          11          1         46             46           8
Mississippi                27        87          86          18          7         75             74          21
Mississippi
Extended Service
Team                        9       114         111          22          1        198         195             28
Montana                     9       122         110          19          0          0           0              0
Nebraska                    6        75          71          14          2         36          36              1
New Jersey                 46        94          92          25          8         62          61             27
New Mexico                  8       115         112          35          3         49          49              1




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)        B-5
                               Back Disorder Cases                           Genito-Urinary Cases
                                                       Average                          Average         Average
                               Average     Average                            Average
                      Number                             Days     Number                  Days            Days
                                Days      Days from                            Days
                        of                            from Last     of                    from         from Last
       Site                     from      Examiner                             from
                      Sample                           Evidence   Sample                Examiner        Evidence
                               Receipt    Assigned                            Receipt
                       Cases                           Received    Cases                Assigned        Received
                                Date        Date                               Date
                                                                                          Date
New York
Disability
Processing Branch          7        125         125           9          0          0             0            0
North Dakota               3         72          59           9          0          0             0            0
Office of Medical
and Vocational
Expertise                  2        138         125          26          0          0              0          0
Ohio                      57        102          93          20         16         68             60         17
Oklahoma                  23         83          79          26          3         76             75          8
Oklahoma Extended
Service Team              15        113         110          20          1        140         140      Same Day
Oregon                    28         97          91          19          2         90          87            10
Philadelphia
Disability
Processing Branch         15        129         128          27          1         22             22          8
Puerto Rico               16        164         149          34          3         53             35         10
Rhode Island               5         62          62          19          2         30             30         13
San Francisco
Federal Disability
Unit                      11        125         124          29          2         68             68          6
South Carolina            37         94          88          18         12         54             49         18
South Dakota               4         98          96          22          0          0              0          0
South East
Disability
Processing Branch          7        111         110          32          2         91             85         32
Tennessee                 44         99          96          28          6         91             87         27
Texas                    138         88          82          25         31         66             59         25
Utah                       7         77          66          24          0          0              0          0
U.S. Virgin Islands        1        143         143          13          0          0              0          0
Virginia                  39         90          77          14          5         55             36         13
Virginia Extended
Service Team              11        116         108          32          2         57             41         26
Wisconsin                 18        108          93          27          4         61             51         25
Wyoming                    2         90          85           6          0          0              0           0




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)        B-6
       Table B–3: Initial Claims Processing Times (Days) from DDS Receipt Date to
                        Determination Date - Back Disorder Cases
                                         SDM Prototype
                                                             SDM II Sites    Non-SDM Sites    All Sites
                                             Sites
 Number of Sample Cases                            1,100             1,100           1,100        3,300
 Average Case Processing Time (days)                  77                71             100           82
 Low Range (days)                                      5                 4               3            3
 High Range (days)                                   298               302             331          331
 Cases with an MC Signature                           533             458            1,100        2,091
 Average Case Processing Time (days)                   87              90              100           94
 Low Range (days)                                      10               8                3            3
 High Range (days)                                    298             268              331          331
 Cases without an MC Signature                        567             642              N/A
 Average Case Processing Time (days)                   67              57              N/A
 Low Range (days)                                       5               4              N/A
 High Range (days)                                    238             302              N/A


       Table B–4: Initial Claims Processing Times (Days) from DDS Receipt Date to
            Determination Date - Back Disorder Cases – SDM Prototype Sites
                                        SDM Processed Cases       Non-SDM Processed Cases    All Cases
 Number of Sample Cases                                 759                          341         1,100
 Average Case Processing Time (days)                      71                           89           77
 Low Range (days)                                          5                           10            5
 High Range (days)                                      238                          298           298
 Cases with an MC Signature                                 192                       341          533
 Average Case Processing Time (days)                         83                        89           87
 Low Range (days)                                            10                        10           10
 High Range (days)                                          236                       298          298
 Cases Without an MC Signature                              567                       N/A
 Average Case Processing Time (days)                         67                       N/A
 Low Range (days)                                             5                       N/A
 High Range (days)                                          238                       N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)      B-7
       Table B–5: Initial Claims Processing Times (Days) from DDS Receipt Date to
                Determination Date - Back Disorder Cases - SDM II Sites
                                          SDM Processed       Non-SDM Processed
                                                                                          All Cases
                                             Cases                  Cases
 Number of Sample Cases                               755                   345                   1,100
 Average Case Processing Time (days)                    62                    90                     71
 Low Range (days)                                        4                     8                      4
 High Range (days)                                    302                   268                     302
 Cases with an MC Signature                             113                   345                     458
 Average Case Processing Time (days)                     91                    90                      90
 Low Range (days)                                        13                     8                       8
 High Range (days)                                      242                   268                     268
 Cases without an MC Signature                          642                  N/A
 Average Case Processing Time (days)                     57                  N/A
 Low Range (days)                                         4                  N/A
 High Range (days)                                      302                  N/A

       Table B–6: Initial Claims Processing Times (Days) from DDS Receipt Date to
                       Determination Date - Genito-Urinary Cases
                                       SDM Prototype      SDM II
                                                                       Non-SDM Sites         All Sites
                                           Sites           Sites

Number of Sample Cases                           200             200              200              600
Average Case Processing Time (days)               56              53               65               58
Low Range (days)                            Same Day               1         Same Day         Same Day
High Range (days)                                205             281              226              281
Cases with an MC Signature                         94             61              200              355
Average Case Processing Time (days)                71             74               65               68
Low Range (days)                                    2              2         Same Day         Same Day
High Range (days)                                 205            281              226              281
Cases without an MC Signature                    106             139                N/A
Average Case Processing Time (days)               42              44                N/A
Low Range (days)                            Same Day               1                N/A
High Range (days)                                170             245                N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)          B-8
       Table B–7: Initial Claims Processing Times (Days) from DDS Receipt Date to
            Determination Date - Genito-Urinary Cases - SDM Prototype Sites
                                        SDM Processed         Non-SDM Processed
                                                                                        All Cases
                                           Cases                    Cases
 Number of Sample Cases                             146                       54                 200
 Average Case Processing Time (days)                 48                       76                  56
 Low Range (days)                             Same Day                         3            Same Day
 High Range (days)                                  185                      205                 205
 Cases with an MC Signature                           40                       54                    94
 Average Case Processing Time (days)                  64                       76                    71
 Low Range (days)                                      2                        3                     2
 High Range (days)                                   185                      205                   205
 Cases Without an MC Signature                       106                     N/A
 Average Case Processing Time (days)                  42                     N/A
 Low Range (days)                               Same Day                     N/A
 High Range (days)                                   170                     N/A

       Table B–8: Initial Claims Processing Times (Days) from DDS Receipt Date to
               Determination Date - Genito-Urinary Cases - SDM II Sites
                                       SDM Processed Cases         Non-SDM
                                                                                        All Cases
                                                                 Processed Cases
Number of Sample Cases                                  166                     34                  200
Average Case Processing Time (days)                      47                     82                   53
Low Range (days)                                          1                      2                    1
High Range (days)                                       245                   281                   281
Cases with an MC Signature                               27                    34                    61
Average Case Processing Time (days)                      63                    82                    74
Low Range (days)                                         12                     2                     2
High Range (days)                                       201                   281                   281
Cases Without an MC Signature                           139                   N/A
Average Case Processing Time (days)                      44                   N/A
Low Range (days)                                          1                   N/A
High Range (days)                                       245                   N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)      B-9
 Table B–9: Initial Claims Processing Times (Days) from DDS Examiner Assigned Date to
                        Determination Date – Back Disorder Cases
                                         SDM Prototype                       Non-SDM
                                                             SDM II Sites                     All Sites
                                             Sites                             Sites
 Number of Sample Cases                            1,100            1,100           1,100        3,300
 Average Case Processing Time (days)                  74               67              94           78
 Low Range (days)                               Same Day                1               3     Same Day
 High Range (days)                                   298              295             331          331
 Cases with an MC Signature                           533            458           1,100          2,091
 Average Case Processing Time (days)                   83             87              94             90
 Low Range (days)                                      10              5               3              3
 High Range (days)                                    298            258             331            331
 Cases Without an MC Signature                       567             642             N/A
 Average Case Processing Time (days)                  65              52             N/A
 Low Range (days)                               Same Day               1             N/A
 High Range (days)                                   238             295             N/A


Table B–10: Initial Claims Processing Times (Days) from DDS Examiner Assigned Date to
          Determination Dates – Back Disorder Cases – SDM Prototype Sites
                                            SDM Processed         Non-SDM Processed
                                                                                            All Cases
                                               Cases                    Cases
 Number of Sample Cases                                  759                     341            1,100
 Average Case Processing Time (days)                      69                      85               74
 Low Range (days)                                  Same Day                       10         Same Day
 High Range (days)                                       238                     298              298
 Cases with an MC Signature                                 192                   341               533
 Average Case Processing Time (days)                         80                    85                83
 Low Range (days)                                            10                    10                10
 High Range (days)                                          228                   298               298
 Cases Without an MC Signature                           567                     N/A
 Average Case Processing Time (days)                      65                     N/A
 Low Range (days)                                   Same Day                     N/A
 High Range (days)                                       238                     N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)     B-10
   Table B–11: Initial Claims Processing Times (Days) from Examiner Assigned Date to
               Determination Date – Back Disorder Cases – SDM II Sites
                                          SDM Processed         Non-SDM Processed
                                                                                           All Cases
                                             Cases                    Cases
 Number of Sample Cases                               755                     345                  1,100
 Average Case Processing Time (days)                    57                      88                    67
 Low Range (days)                                        1                       8                     1
 High Range (days)                                    295                     258                    295
 Cases with an MC Signature                             113                    345                     458
 Average Case Processing Time (days)                     86                     88                      87
 Low Range (days)                                         5                      8                       5
 High Range (days)                                      241                    258                     258
 Cases Without an MC Signature                          642                   N/A
 Average Case Processing Time (days)                     52                   N/A
 Low Range (days)                                         1                   N/A
 High Range (days)                                      295                   N/A

Table B–12: Initial Claims Processing Times (Days) from DDS Examiner Assigned Date to
                       Determination Date – Genito-Urinary Cases
                                       SDM Prototype      SDM II
                                                                         Non-SDM Sites        All Sites
                                           Sites           Sites

Number of Sample Cases                           200               200             200              600
Average Case Processing Time (days)               53                49              59               54
Low Range (days)                            Same Day          Same Day        Same Day         Same Day
High Range (days)                                193               281             226              281
Cases with an MC Signature                         94               61             200              355
Average Case Processing Time (days)                67               72              59               63
Low Range (days)                                    2                2        Same Day         Same Day
High Range (days)                                 193              281             226              281
Cases Without an MC Signature                    106               139               N/A
Average Case Processing Time (days)               40                39               N/A
Low Range (days)                            Same Day          Same Day               N/A
High Range (days)                                170               245               N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)        B-11
Table B–13: Initial Claims Processing Times (Days) from DDS Examiner Assigned Date to
          Determination Date – Genito-Urinary Cases – SDM Prototype Sites
                                        SDM Processed         Non-SDM Processed
                                                                                        All Cases
                                           Cases                    Cases
 Number of Sample Cases                             146                       54                 200
 Average Case Processing Time (days)                 46                       72                  53
 Low Range (days)                             Same Day                         3            Same Day
 High Range (days)                                  182                      193                 193
 Cases with an MC Signature                           40                       54                    94
 Average Case Processing Time (days)                  61                       72                    67
 Low Range (days)                                      2                        3                     2
 High Range (days)                                   182                      193                   193
 Cases Without an MC Signature                       106                     N/A
 Average Case Processing Time (days)                  40                     N/A
 Low Range (days)                               Same Day                     N/A
 High Range (days)                                   170                     N/A

Table B–14: Initial Claims Processing Times (Days) from DDS Examiner Assigned Date to
              Determination Date – Genito-Urinary Cases – SDM II Sites
                                       SDM Processed Cases         Non-SDM
                                                                                        All Cases
                                                                 Processed Cases
Number of Sample Cases                                 166                      34                200
Average Case Processing Time (days)                     43                      82                 49
Low Range (days)                                  Same Day                       2           Same Day
High Range (days)                                      245                    281                 281
Cases with an MC Signature                               27                    34                    61
Average Case Processing Time (days)                      61                    82                    72
Low Range (days)                                         12                     2                     2
High Range (days)                                       198                   281                   281
Cases Without an MC Signature                          139                    N/A
Average Case Processing Time (days)                     39                    N/A
Low Range (days)                                  Same Day                    N/A
High Range (days)                                      245                    N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)     B-12
Allowance and Appeals Rates
            Table B–15: Disability Determinations and Appeals - Back Disorder Cases 6
                                                                     SDM Prototype           SDM II       Non-SDM
                                                                         Sites                Sites         Sites
    Number of Sample Cases                                                     1,100             1,100        1,100
    Initial Allowances                                                           369                276         340
    Initial Allowance Rate                                                      34%               25%          31%
    Initial Denials                                                              731                824         760
    Initial Denials Appealed to Reconsideration                                  N/A                501         446
    Percentage of Initial Denials Appealed to Reconsideration                    N/A              61%          59%
    Reconsideration Allowances 7                                                   N/A               40            53
    Reconsideration Allowance Rate                                                 N/A              8%           12%
    Reconsideration Denials                                                        N/A              461           393
    Initial Denials Appealed Directly to Hearing (SDM Prototype)                   438             N/A           N/A
    Reconsideration Denials Appealed to Hearing                                    N/A              394           341
    Percentage of Reconsideration Denials Appealed to Hearing                      N/A             85%           87%
    Hearings Pending as of July 2013                                                20               43            45
    Hearing Allowances                                                             261              198           189
    Hearing Allowance Rate                                                        62%              56%           64%
    Hearing Denials 8                                                              157              153           107
    Hearing Denials Appealed to AC 9                                                71               70            38
    Percentage of Hearing Denials Appealed to AC                                  45%              46%           36%
    AC Reviews Pending as of July 2013                                               46              60            31
    AC Allowances                                                                     0               0             0
    AC Allowance Rate                                                               0%              0%            0%
    AC Denials                                                                       25              10             7
    Overall Allowance Rate through AC 10                                          61%              52%           57%




6
 We did not determine whether the difference in allowance rates through the AC level was due to SDM, the
elimination of the reconsideration step in prototype sites, or some other factor.
7
 Prototype sites generally do not process reconsiderations but do process some, such as transfers from
non-prototype sites. None of our SDM prototype sample cases had a reconsideration.
8
    Hearing and AC denials include dismissals and withdrawals.
9
    The AC also reviewed 25 hearing allowances including 6 SDM prototype, 9 SDM II, and 10 Non-SDM cases.
10
  The differences in the overall allowance rates among the three samples were statistically significant at the
0.05 level of significance. Statistical significance is an interpretation of statistical data that indicates that an
occurrence was probably the result of a causative factor and not simply a chance result. A finding of not statistically
significant indicates probable occurrence by chance.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                   B-13
We did not test for causes in the variations between allowance rates in the three populations.
However, the allowance rates for our sample cases were similar to the allowance rates for all
cases nationwide, including all impairments and all types of claims—SDM and Non-SDM. The
initial allowance rates for all claims in CY 2011 was 35 percent in the SDM prototype sites,
28.8 percent in the SDM II sites, and 33.3 percent in the Non-SDM sites. See Table B–48 for the
initial allowance rates for each DDS. Likewise, for claims filed in CY 2010, the Overall
Allowance Rate was 49.9 percent for all States, 52.1 percent for prototype States, 46.5 percent in
SDM II States, and 50 percent in Non-SDM States. See Table B–49 for more details.

     Table B–16: Disability Determinations and Appeals - Back Disorder Cases - SDM
                                    Prototype Sites
                                                                   SDM         Non-SDM
                                                                 Processed     Processed    All Cases
                                                                   Cases         Cases
Number of Sample Cases                                                   759          341         1,100
Initial Allowances                                                       299           70           369
Initial Allowance Rate                                                 39%          21%            34%
Initial Denials                                                          460          271           731
Initial Denials Appealed to Hearing                                      277          161           438
Percentage of Initial Denials Appealed to Hearing                       60%          59%           60%
Hearings Pending as of July 2013                                          15            5           20
Hearing Allowances                                                       163           98          261
Hearing Allowance Rate                                                  62%          63%          62%
Hearing Denials8                                                          99           58          157
Hearing Denials Appealed to AC                                            40           31           71
Percentage of Hearing Denials Appealed to AC                            40%          53%          45%
AC Reviews Pending as of July 2013                                        27           19           46
AC Allowances                                                              0            0            0
AC Allowance Rate                                                        0%           0%           0%
AC Denials8                                                               13           12           25
Overall Allowance Rate Through AC                                       64%          53%          61%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-14
Table B–17: Disability Determinations and Appeals - Back Disorder Cases - SDM II Sites
                                                                                Non-SDM
                                                              SDM Processed
                                                                                Processed      All Cases
                                                                 Cases
                                                                                  Cases
Number of Sample Cases                                                    755          345         1,100
Initial Allowances                                                        227           49           276
Initial Allowance Rate                                                   30%          14%           25%
Initial Denials                                                           528          296           824
Initial Denials Appealed to Reconsideration                               322          179           501
Percentage of Initial Denials Appealed to Reconsideration                61%          60%           61%
Reconsideration Allowances                                                 27             13          40
Reconsideration Allowance Rate                                            8%             7%          8%
Reconsideration Denials                                                   295            166         461
Reconsideration Denials Appealed to Hearing                               242            152         394
Percentage of Reconsideration Denials Appealed to Hearing                82%            92%         85%
Hearings Pending as of July 2013                                           23             20         43
Hearing Allowances                                                        120             78        198
Hearing Allowance Rate                                                   55%            59%        56%
Hearing Denials                                                            99             54        153
Hearing Denials Appealed to AC                                             40             30         70
Percentage of Hearing Denials Appealed to AC                             40%            56%        46%
AC Reviews Pending as of July 2013                                         33             27          60
AC Allowances                                                               0              0           0
AC Allowance Rate                                                         0%             0%          0%
AC Denials                                                                  7              3          10
Overall Allowance Rate through AC                                        54%            47%        52%

  Table B–18: Disability Determinations and Appeals - Back Disorder Cases - SDM Sites
                              Compared to Non-SDM Sites
                                                                                           Non-SDM
                                                                         SDM Sites
                                                                                             Sites
  Number of Sample Cases                                                        2,200             1,100
  Initial Allowances                                                              645               340
  Initial Allowance Rate                                                         29%               31%
  Initial Denials                                                               1,555               760
  Initial Denials Appealed to Reconsideration or Hearing                          939               446
  Percentage of Initial Denials Appealed to Reconsideration or Hearing           60%               59%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)     B-15
           Table B–19: Disability Determinations and Appeals - Genito-Urinary Cases6
                                                                     SDM Prototype           SDM II        Non-SDM
                                                                         Sites                Sites          Sites
 Number of Sample Cases                                                          200                200          200
 Initial Allowances                                                              125                120          133
 Initial Allowance Rate                                                        63%                60%           67%
 Initial Denials                                                                  75                 80            67
 Initial Denials Appealed to Reconsideration                                    N/A                  43            33
 Percentage of Initial Denials Appealed to Reconsideration                      40%               54%           49%
 Reconsideration Allowances7                                                       N/A               13             9
 Reconsideration Allowance Rate                                                    N/A             30%           27%
 Reconsideration Denials                                                           N/A               30            24
 Initial Denials Appealed Directly to Hearing (SDM Prototype)                       30             N/A           N/A
 Reconsideration Denials Appealed to Hearing                                       N/A               22            20
 Percentage of Reconsideration Denials Appealed to Hearing                         N/A             73%           83%
 Hearings Pending as of July 2013                                                     1               4            4
 Hearing Allowances                                                                  17              10            8
 Hearing Allowance Rate                                                            59%             56%           50%
 Hearing Denials                                                                     12               8            8
 Hearing Denials Appealed to AC 11                                                    2               4            4
 Percentage of Hearing Denials Appealed to AC                                      17%             50%           50%
 AC Reviews Pending as of July 2013                                                  1               4                4
 AC Allowances                                                                       0               0                0
 AC Allowance Rate                                                                  0%              0%               0%
 AC Denials                                                                          1               0                0
 Overall Allowance Rate Through AC 12                                              72%             74%           78%




11
     The AC also reviewed three hearing allowances: one SDM prototype, one SDM II, and one Non-SDM case.
12
  The differences in the overall allowance rates among the three samples were not statistically significant at the
0.05 level of significance.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                      B-16
    Table B–20: Disability Determinations and Appeals - Genito-Urinary Cases - SDM
                                    Prototype Sites
                                                                   SDM         Non-SDM
                                                                 Processed     Processed    All Cases
                                                                   Cases         Cases
Number of Sample Cases                                                   146           54          200
Initial Allowances                                                       104           21          125
Initial Allowance Rate                                                 71%          39%           63%
Initial Denials                                                           42           33           75
Initial Denials Appealed to Hearing                                       18           12           30
Percentage of Initial Denials Appealed to Hearing                       43%          36%          40%
Hearings Pending as of July 2013                                          1            0             1
Hearing Allowances                                                        9            8            17
Hearing Allowance Rate                                                  53%          67%          59%
Hearing Denials8                                                          8            4            12
Hearing Denials Appealed to AC                                            2            0             2
Percentage of Hearing Denials Appealed to AC                            25%           0%          17%
AC Reviews Pending as of July 2013                                        1            0            1
AC Allowances                                                             0            0            0
AC Allowance Rate                                                        0%           0%           0%
AC Denials8                                                               1            0            1
Overall Allowance Rate Through AC                                       78%          54%          72%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-17
Table B–21: Disability Determinations and Appeals - Genito-Urinary Cases - SDM II Sites
                                                                                 Non-SDM
                                                              SDM Processed
                                                                                 Processed        All Cases
                                                                 Cases
                                                                                   Cases
 Number of Sample Cases                                                  166             34             200
 Initial Allowances                                                      111              9             120
 Initial Allowance Rate                                                 67%            26%             60%
 Initial Denials                                                          55             25              80
 Initial Denials Appealed to Reconsideration                              30             13              43
 Percentage of Initial Denials Appealed to Reconsideration              55%            52%             54%
 Reconsideration Allowances                                               10                 3           13
 Reconsideration Allowance Rate                                         33%               23%          30%
 Reconsideration Denials                                                  20                10           30
 Reconsideration Denials Appealed to Hearing                              13                 9           22
 Percentage of Reconsideration Denials Appealed to Hearing              65%               90%          73%
 Hearings Pending as of July 2013                                         3                 1             4
 Hearing Allowances                                                       5                 5            10
 Hearing Allowance Rate                                                 50%               63%          56%
 Hearing Denials                                                          5                 3             8
 Hearing Denials Appealed to AC                                           3                 1             4
 Percentage of Hearing Denials Appealed to AC                           60%               33%          50%
 AC Reviews Pending as of July 2013                                       3                 1            4
 AC Allowances                                                            0                 0            0
 AC Allowance Rate                                                       0%                0%           0%
 AC Denials                                                               0                 0            0
 Overall Allowance Rate Through AC                                      79%               53%          74%

     Table B–22: Disability Determinations and Appeals - Genito-Urinary - SDM Sites
                              Compared to Non-SDM Sites
                                                                                                 Non-SDM
                                                                              SDM Sites
                                                                                                   Sites
Number of Sample Cases                                                                400                 200
Initial Allowances                                                                    245                 133
Initial Allowance Rate                                                               61%                 67%
Initial Denials                                                                       155                  67
Initial Denials Appealed to Reconsideration or Hearing                                 73                  33
Percentage of Initial Denials Appealed to Reconsideration or Hearing                 47%                 49%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)         B-18
Consultative Examinations
When a DDS needs to get more information about a claimant’s impairment(s) and/or level of
functioning, the disability examiner will generally order a CE. 13

                 Table B–23: CEs Ordered on Initial Claims - Back Disorder Cases
                                                          SDM Prototype      SDM II     Non-SDM      All
                                                             Sites            Sites       Sites     Sites
     Number of Sample Cases                                        1,100        1,100       1,100   3,300
     Cases with a CE                                                 635          510         580   1,725
     Percentage of Cases with CE                                    58%          46%         53%     52%
     Average Case Processing Time with a CE (days)                    90           89         119     100
     Low Range (days)                                                 14            9          29       9
     High Range (days)                                               298          302         323     323
     Average Case Processing Time Without a CE
                                                                      59           55          78      64
     (days)
     Low Range (days)                                                  5            4           3       3
     High Range (days)                                               238          245         331     331

         Table B–24: CEs Ordered on Initial Claims - Back Disorder Cases - SDM Sites
                                           SDM Prototype Sites                    SDM II Sites
                                         SDM          Non-SDM      All       SDM        Non-SDM      All
                                       Processed      Processed   Cases    Processed    Processed   Cases
                                         Cases          Cases                Cases        Cases
     Number of Sample Cases                     759         341   1,100         755           345   1,100
     Cases with a CE                            441         194     635         313           197     510
     Percentage of Cases with CE                58%         57%    58%          41%          57%     46%

     Average Case Processing Time
                                                 83         106      90          79           105      89
     with a CE (days)
     Low Range (days)                            14          26      14           9            29       9
     High Range (days)                          238         298     298         302           268     302

     Average Case Processing Time
                                                 55          66      59          50            70      55
     Without a CE (days)
     Low Range (days)                             5          10       5           4             8       4
     High Range (days)                          231         238     238         245           239     245




13
     SSA, POMS, DI 22510.005 (April 8, 2013).



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)        B-19
             Table B–25: CEs Ordered on Initial Claims - Genito-Urinary Cases
                                                    SDM                 SDM II        Non-SDM             All Sites
                                                Prototype Sites          Sites          Sites
 Number of Sample Cases                                    200               200             200                 600
 Cases with a CE                                             36                33             20                  89
 Percentage of Cases with CE                              18%               17%             10%                 15%
 Average Case Processing Time with a CE
                                                             103              94               123              104
 (days)
 Low Range (days)                                             29              35                54               29
 High Range (days)                                           189             205               222              222
 Average Case Processing Time Without a CE
                                                              46              45                58                50
 (days)
 Low Range (days)                                       Same Day               1          Same Day        Same Day
 High Range (days)                                           205             281               226             281

      Table B–26: CEs Ordered on Initial Claims - Genito-Urinary Cases - SDM Sites

                                    SDM Prototype Sites                               SDM II Sites

                                  SDM       Non-SDM                         SDM             Non-SDM
                                                                                                              All
                                Processed   Processed     All Cases       Processed         Processed
                                                                                                             Cases
                                  Cases       Cases                         Cases             Cases
 Number of Sample Cases               146           54          200              166               34            200
 Cases with a CE                       23           13           36               22               11             33
 Percentage of Cases with CE         16%          24%          18%              13%              32%            17%

 Average Case Processing
                                       96         113           103                  76           131             94
 Time with a CE (days)
 Low Range (days)                      29          68            29                  35            36             35
 High Range (days)                    185         189           189                 201           205            205

 Average Case Processing
                                       39          65              46                42              59           45
 Time Without a CE (days)
 Low Range (days)               Same Day            3     Same Day                   1               2                1
 High Range (days)                    170         205           205                 245           281            281




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                   B-20
Last Evidence Received to Determination Date
     Table B–27: Days from Last Evidence Received to Determination Date – Back Disorder
                                          Cases 14
                                               SDM Prototype                             Non-SDM
                                                                      SDM II Sites                          All Sites
                                                   Sites                                   Sites
 Number of Sample Cases                                    1,100            1,100                1,100        3,300
 Average Time (days)                                          12               13                   21           15
 Low Range (days)                                       Same Day         Same Day          Same Day        Same Day
 High Range (days)                                           191              211                  191          211
 Cases with an MC Signature                                  533              458               1,100         2,091
 Average Case Processing Time (days)                          15               18                  21            19
 Low Range (days)                                       Same Day         Same Day            Same Day      Same Day
 High Range (days)                                           191              144                 191           191
 Cases Without an MC Signature                               567              642                  N/A
 Average Case Processing Time (days)                           9               10                  N/A
 Low Range (days)                                       Same Day         Same Day                  N/A
 High Range (days)                                           100              211                  N/A


     Table B–28: Days from Last Evidence Received to Determination Date – Back Disorder
                                Cases – SDM Protoype Sites
                                              SDM Processed Cases          Non-SDM Processed
                                                                                                         All Cases
                                                                                 Cases
 Number of Sample Cases                                           759                    341                  1,100
 Average Case Processing Time (days)                               11                      15                    12
 Low Range (days)                                            Same Day               Same Day               Same Day
 High Range (days)                                                100                    191                    191
 Cases with an MC Signature                                       192                       341                 533
 Average Case Processing Time (days)                               15                        15                  15
 Low Range (days)                                            Same Day                  Same Day            Same Day
 High Range (days)                                                 97                       191                 191
 Cases Without an MC Signature                                    567                        N/A
 Average Case Processing Time (days)                                9                        N/A
 Low Range (days)                                            Same Day                        N/A
 High Range (days)                                                100                        N/A




14
  For cases denied for failure to cooperate, this was the date the claimant did not cooperate. For cases denied for
insufficient evidence, this was the date DDS determined the evidence was insufficient.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                   B-21
 Table B–29: Days from Last Evidence Received to Determination Date – Back Disorder
                                cases – SDM II Sites
                                          SDM Processed        Non-SDM Processed
                                                                                          All Cases
                                             Cases                   Cases
 Number of Sample Cases                               755                    345                 1,100
 Average Case Processing Time (days)                    12                     17                   13
 Low Range (days)                               Same Day                Same Day              Same Day
 High Range (days)                                    211                    144                   211
 Cases with an MC Signature                           113                     345                  458
 Average Case Processing Time (days)                   21                      17                   18
 Low Range (days)                                Same Day                Same Day             Same Day
 High Range (days)                                    127                     144                  144
 Cases Without an MC Signature                        642                    N/A
 Average Case Processing Time (days)                   10                    N/A
 Low Range (days)                                Same Day                    N/A
 High Range (days)                                    211                    N/A

 Table B–30: Days from Last Evidence Received to Determination Date – Genito-Urinary
                                       Cases
                                       SDM Prototype      SDM II
                                                                        Non-SDM Sites        All Sites
                                           Sites           Sites

Number of Sample Cases                           200              200             200              600
Average Case Processing Time (days)               11               10              18               13
Low Range (days)                            Same Day         Same day        Same Day         Same Day
High Range (days)                                 70              184             166              184
Cases with an MC Signature                        94               61             200              355
Average Case Processing Time (days)               16               15              18               17
Low Range (days)                            Same Day         Same Day        Same Day         Same Day
High Range (days)                                 70               67             166              166
Cases without an MC Signature                    106              139               N/A
Average Case Processing Time (days)                7                7               N/A
Low Range (days)                            Same Day         Same Day               N/A
High Range (days)                                 62              184               N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)       B-22
 Table B–31: Days from Last Evidence Received to Determination Date – Genito-Urinary
                            Cases – SDM Prototype Sites
                                        SDM Processed           Non-SDM Processed
                                                                                        All Cases
                                           Cases                      Cases
 Number of Sample Cases                             146                         54               200
 Average Case Processing Time (days)                 10                         14                11
 Low Range (days)                             Same Day                    Same Day          Same Day
 High Range (days)                                   68                         70                70
 Cases with an MC Signature                           40                        54                94
 Average Case Processing Time (days)                  17                        14                16
 Low Range (days)                               Same Day                  Same Day          Same Day
 High Range (days)                                    68                        70                70
 Cases without an MC Signature                       106                       N/A
 Average Case Processing Time (days)                   7                       N/A
 Low Range (days)                               Same Day                       N/A
 High Range (days)                                    62                       N/A

 Table B–32: Days from Last Evidence Received to Determination Date – Genito-Urinary
                                Cases – SDM II Sites
              Table                    SDM Processed Cases           Non-SDM
                                                                                        All Cases
                                                                   Processed Cases
Number of Sample Cases                                 166                        34              200
Average Case Processing Time (days)                      9                        14               10
Low Range (days)                                  Same Day                 Same Day          Same Day
High Range (days)                                      184                        67              184
Cases with an MC Signature                                 27                   34                 61
Average Case Processing Time (days)                        16                   14                 15
Low Range (days)                                            1             Same Day           Same Day
High Range (days)                                          48                   67                 67
Cases without an MC Signature                          139                      N/A
Average Case Processing Time (days)                      7                      N/A
Low Range (days)                                  Same Day                      N/A
High Range (days)                                      184                      N/A




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)     B-23
Age of Claimants at the Time of Determination
Table B–33: Age of Claimants at the Time of Initial Determination - Back Disorder Cases
                                 SDM Prototype Sites               SDM II Sites                   Non-SDM Sites
                                 SDM         Non-SDM           SDM             Non-SDM
                               Processed     Processed       Processed         Processed            All Cases
                                 Cases         Cases           Cases             Cases
 Number of Sample Cases               759            341            755               345                  1,100
 Average Age (years)                    50            47              49                48                     50
 Age Range (years)                19 to 66      19 to 65        19 to 66          19 to 65               18 to 82

Table B–34: Age of Claimants at the Time of Initial Determination - Genito-Urinary Cases
                                 SDM Prototype Sites               SDM II Sites                   Non-SDM Sites
                                 SDM         Non-SDM           SDM             Non-SDM
                               Processed     Processed       Processed         Processed            All Cases
                                 Cases         Cases           Cases             Cases
 Number of Sample Cases               146             54            166                 34                   200
 Average Age (years)                    46            42              48                48                     48
 Age Range (years)                17 to 66      18 to 64        18 to 65          20 to 65               18 to 65

Determination Reasons
          Table B–35: Initial Claims Determination Reasons - Back Disorder Cases
                                       SDM Prototype Sites             SDM II Sites                Non-SDM Sites

              Reason                    SDM        Non-SDM          SDM           Non-SDM
                                      Processed    Processed      Processed       Processed           All Cases
                                        Cases        Cases          Cases           Cases
            Allowance                        299             70        227                   49                 340
 Collateral Estoppel                           0              0          0                    0                   1
 Medical/Vocational Issue                    282             70        217                   49                 314
 Meets or Equals a Listing                    17              0         10                    0                  25
                Denial                       460           271         528               296                    760
 Discontinued Claim                            1             2           2                 0                      2
 Failure to Cooperate                         18            14          14                15                     27
 Failure to Follow Prescribed
                                              0              0             0                 1                    1
 Treatment
 Insufficient Evidence                        18            12          26                15                     38
 Medical/Vocational Issue                    371           223         416               245                    603
 Non-Severe                                   34             7          34                 9                     54
 Not Expected to Meet Duration                18            13          36                11                     35
                             TOTAL           759           341         755               345                1,100




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                 B-24
          Table B–36: Initial Claims Determination Reasons - Genito-Urinary Cases
                                      SDM Prototype Sites          SDM II Sites        Non-SDM Sites
               Reason                  SDM        Non-SDM       SDM       Non-SDM
                                     Processed    Processed   Processed   Processed      All Cases
                                       Cases        Cases       Cases       Cases
               Allowance                   104           21         111            9              133
 Collateral Estoppel                         1            0           0            0                0
 Medical/Vocational Issue                   20            6          16            0               16
 Meets or Equals a Listing                  83           15          95            9              117
                 Denial                      42          33          55           25                 67
 Discontinued Claim                           0           0           1            0                  0
 Failure to Cooperate                         1           2           1            1                  4
 Insufficient Evidence                        2           2           1            1                  6
 Medical/Vocational Issue                    24          20          38           22                 37
 Non-Severe                                  12           8           8            1                 13
 Not Expected to Meet Duration                3           1           6            0                  7
                             TOTAL         146           54         166           34              200




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-25
Sample Results by Title
SSA provides Disability Insurance and Supplemental Security Income disability payments to
eligible individuals under Titles II and XVI of the Social Security Act. 15

      Table B–37: Initial Claims Processing Times (Days) by Title and Site - Back Disorder
                                             Cases
                                                     Title II         Title XVI        Concurrent          All Cases
     SDM Prototype Sites
     Number of Sample Cases                                     540            211                   349        1,100
     Average Case Processing Time (days)                         72             78                    83           77
     Low Range (days)                                            5              10                    9                5
     High Range (days)                                          261            298                   261          298
     SDM II Sites
     Number of Sample Cases                                     503            175                   422        1,100
     Average Case Processing Time (days)                         68             67                    76           71
     Low Range (days)                                            4                8                   8                4
     High Range (days)                                          252            258                   302          302
     Non-SDM Sites
     Number of Sample Cases                                     497            212                   391        1,100
     Average Case Processing Time (days)                         96            101                   103          100
     Low Range (days)                                            3              12                    13               3
     High Range (days)                                          331            240                   323          331




15
     Social Security Act §§ 223 et seq. and 1611 et seq. 42 U.S.C. §§ 423 et seq. and 1382 et seq.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                   B-26
  Table B–38: Initial Claims Processing Times (Days) by Title and Site - Genito-Urinary
                                         Cases
                                            Title II        Title XVI       Concurrent    All Cases
 SDM Prototype Sites
 Number of Sample Cases                                80           46               74           200
 Average Case Processing Time (days)                   55           61               53            56
 Low Range (days)                                      1      Same Day                1     Same Day
 High Range (days)                                 157             205              185           205
 SDM II Sites
 Number of Sample Cases                                74           50               76           200
 Average Case Processing Time (days)                   43           60               57            53
 Low Range (days)                                      1                2             2               1
 High Range (days)                                 197             205              281           281
 Non-SDM Sites
 Number of Sample Cases                                68           60               72           200
 Average Case Processing Time (days)                   68           62               64            65
 Low Range (days)                                      5                1      Same Day     Same Day
 High Range (days)                                 222             226              196           226




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-27
   Table B–39: Disability Determinations and Appeals by Title - Back Disorder Cases -
                                   Non-SDM Sites
                                                                Title II     Title XVI     Concurrent
 Number of Sample Cases                                                497           212          391
 Initial Allowances                                                    197            70           73
 Initial Allowance Rate                                               40%           33%          19%
 Initial Denials                                                       300           142          318
 Initial Denials Appealed to Reconsideration                           192            69          185
 Percentage of Initial Denials Appealed to Reconsideration            64%           49%          58%
 Reconsideration Pending                                                0             0              0
 Reconsideration Allowances                                            28            11             14
 Reconsideration Allowance Rate                                      15%           16%             8%
 Reconsideration Denials                                              164            58            171
 Reconsideration Denials Appealed to Hearing                          147            45            149
 Percentage of Reconsideration Denials Appealed to Hearing           90%           78%            87%
 Hearings Pending as of July 2013                                      17             6             22
 Hearing Allowances                                                    88            24             77
 Hearing Allowance Rate                                              68%           62%            61%
 Hearing Denials                                                       42            15             50
 Hearing Denials Appealed to AC                                        12             8             18
 Percentage of Hearing Denials Appealed to AC                        29%           53%            36%
 AC Reviews Pending as of July 2013                                    11            7              13
 AC Allowances                                                          0            0               0
 AC Allowance Rate                                                    0%            0%             0%
 AC Denials                                                             1            1               5
 Allowance Rate Through AC                                           67%           53%            46%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)    B-28
Table B–40: Disability Determinations and Appeals by Title - Back Disorder Cases - SDM
                                    Prototype Sites
                                                                Title II     Title XVI     Concurrent
 Number of Sample Cases                                                540           211          349
 Initial Allowances                                                    225            65           79
 Initial Allowance Rate                                               42%           31%          23%
 Initial Denials                                                       315           146          270
 Initial Denials Appealed to Hearing                                   205            77          156
 Percentage of Initial Denials Appealed to Hearing                    65%           53%          58%
 Hearings Pending as of July 2013                                      11             5              4
 Hearing Allowances                                                   144            32             85
 Hearing Allowance Rate                                              74%           44%            56%
 Hearing Denials                                                       50            40             67
 Hearing Denials Appealed to AC                                        23            17             31
 Percentage of Hearing Denials Appealed to AC                        46%           43%            46%
 AC Reviews Pending as of July 2013                                    14            11             21
 AC Allowances                                                          0             0              0
 AC Allowance Rate                                                    0%            0%             0%
 AC Denials                                                             9             6             10
 Allowance Rate Through AC                                           72%           50%            51%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)    B-29
   Table B–41: Disability Determinations and Appeals by Title - Back Disorder Cases -
                                     SDM II Sites
                                                                Title II     Title XVI     Concurrent
 Number of Sample Cases                                                503           175          422
 Initial Allowances                                                    171            46           59
 Initial Allowance Rate                                               34%           26%          14%
 Initial Denials                                                       332           129          363
 Initial Denials Appealed to Reconsideration                           228            69          204
 Percentage of Initial Denials Appealed to Reconsideration            69%           53%          56%
 Reconsideration Pending                                                0             0              0
 Reconsideration Allowances                                            21             9             10
 Reconsideration Allowance Rate                                       9%           13%             5%
 Reconsideration Denials                                              207            60            194
 Reconsideration Denials Appealed to Hearing                          181            43            170
 Percentage of Reconsideration Denials Appealed to Hearing           87%           72%            88%
 Hearings Pending as of July 2013                                      24             7             12
 Hearing Allowances                                                   103            13             82
 Hearing Allowance Rate                                              66%           36%            52%
 Hearing Denials                                                       54            23             76
 Hearing Denials Appealed to AC                                        28             7             35
 Percentage of Hearing Denials Appealed to AC                        52%           30%            46%
 AC Reviews Pending as of July 2013                                    24            4              32
 AC Allowances                                                          0            0               0
 AC Allowance Rate                                                    0%            0%             0%
 AC Denials                                                             4            3               3
 Allowance Rate Through AC                                           65%           41%            40%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)    B-30
   Table B–42: Disability Determinations and Appeals by Title - Genito-Urinary Cases -
                                    Non-SDM Sites
                                                                Title II     Title XVI     Concurrent
 Number of Sample Cases                                                68             60           72
 Initial Allowances                                                    47             39           47
 Initial Allowance Rate                                              69%            65%          65%
 Initial Denials                                                       21             21           25
 Initial Denials Appealed to Reconsideration                            5             12           16
 Percentage of Initial Denials Appealed to Reconsideration           24%            57%          64%
 Reconsideration Pending                                               0              0              0
 Reconsideration Allowances                                            2              2              5
 Reconsideration Allowance Rate                                      40%           17%            31%
 Reconsideration Denials                                               3             10             11
 Reconsideration Denials Appealed to Hearing                           3              8              9
 Percentage of Reconsideration Denials Appealed to Hearing          100%           80%            82%
 Hearings Pending as of July 2013                                       0            2              2
 Hearing Allowances                                                     2            3              3
 Hearing Allowance Rate                                              67%           50%            43%
 Hearing Denials                                                        1            3              4
 Hearing Denials Appealed to AC                                         1            1              2
 Percentage of Hearing Denials Appealed to AC                       100 %          33%            50%
 AC Reviews Pending as of July 2013                                    1             1              2
 AC Allowances                                                         0             0              0
 AC Allowance Rate                                                    0%            0%             0%
 AC Denials                                                            0             0              0
 Allowance Rate Through AC                                           76%           77%            81%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)    B-31
   Table B–43: Disability Determinations and Appeals by Title - Genito-Urinary Cases -
                                 SDM Prototype Sites
                                                                Title II     Title XVI     Concurrent
 Number of Sample Cases                                                80             46           74
 Initial Allowances                                                    58             25           42
 Initial Allowance Rate                                              73%            54%          57%
 Initial Denials                                                       22             21           32
 Initial Denials Appealed to Hearing                                   12              6           12
 Percentage of Initial Denials Appealed to Hearing                   55%            29%          38%
 Hearings Pending as of July 2013                                      0             1              0
 Hearing Allowances                                                    7             3              7
 Hearing Allowance Rate                                              58%           60%            58%
 Hearing Denials                                                       5             2              5
 Hearing Denials Appealed to AC                                        1             0              1
 Percentage of Hearing Denials Appealed to AC                        20%            0%            20%
 AC Reviews Pending as of July 2013                                    0             0             1
 AC Allowances                                                         0             0             0
 AC Allowance Rate                                                    0%            0%            0%
 AC Denials                                                            1             0             0
 Allowance Rate Through AC                                           81%           62%            67%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-32
       Table B–44: Disability Determinations and Appeals by Title – Genito-Urinary
                                   Cases - SDM II Sites
                                                                        Title II       Title XVI     Concurrent
 Number of Sample Cases                                                        74               50           76
 Initial Allowances                                                            55               23           42
 Initial Allowance Rate                                                      74%              46%          55%
 Initial Denials                                                               19               27           34
 Initial Denials Appealed to Reconsideration                                    9               13           21
 Percentage of Initial Denials Appealed to Reconsideration                   47%              48%          62%
 Reconsideration Pending                                                       0                0              0
 Reconsideration Allowances                                                    5                3              5
 Reconsideration Allowance Rate                                              56%             23%            24%
 Reconsideration Denials                                                       4               10             16
 Reconsideration Denials Appealed to Hearing                                   3                7             12
 Percentage of Reconsideration Denials Appealed to Hearing                   75%             70%            75%
 Hearings Pending as of July 2013                                              1               1              2
 Hearing Allowances                                                            2               2              6
 Hearing Allowance Rate                                                     100%             33%            60%
 Hearing Denials                                                               0               4              4
 Hearing Denials Appealed to AC                                                0               2              2
 Percentage of Hearing Denials Appealed to AC                                 0%             50%            75%
 AC Reviews Pending as of July 2013                                               0            2              2
 AC Allowances                                                                    0            0              0
 AC Allowance Rate                                                               0%           0%             0%
 AC Denials                                                                       0            0              0
 Allowance Rate Through AC                                                   85%             60%            74%

    Table B–45: Initial Claims by Title, Site, and Determination - Back Disorder Cases
                  Site                       Title II Cases          Title XVI Cases        Concurrent Cases
                                         Allowance      Denial      Allowance      Denial   Allowance     Denial
 SDM Prototype Sites                             225          315          65         146            79      270
 Alabama                                          19           28           4          15             6       23
 Alaska                                            0            3           2           0             2        1
 California (Los Angeles North and
                                                   7           11            7          8            3         9
 West)
 Colorado                                          8           22           2          12             5       21
 Louisiana                                        16           21           5          17             6       32
 Michigan                                         36           57           6          13            10       49
 Missouri                                         32           23           7          20            10       32
 New Hampshire                                     5            3           0           1             0        3
 New York                                         68           85          21          23            28       44
 Pennsylvania                                     34           62          11          37             9       56

SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)              B-33
                  Site                   Title II Cases          Title XVI Cases        Concurrent Cases
                                       Allowance   Denial       Allowance   Denial      Allowance   Denial
 SDM II Sites                                171          332          46     129              59      363
 Florida                                      72          102          27      42              25      148
 Guam                                          0            1           0       0               0        0
 Kansas                                        3            8           1       4               0        8
 Kentucky                                     16           45           1      22               1       63
 Maine                                         4            7           0       2               1       12
 Nevada                                       10           20           0       5               7       13
 North Carolina                               25           89           8      31              13       72
 Vermont                                       3            4           0       1               1        5
 Washington                                   32           46           8      15               8       35
 West Virginia                                 6           10           1       7               3        7
 Non-SDM Sites                               197          300          70     142              73      318
 Arizona                                       0           9            0          4            0          9
 Arkansas                                      7           9            1          2            1          7
 Arkansas Extended Service Team                4           8            4          1            4          9
 Baltimore Disability Processing
                                               1           6            1          0            2          2
 Branch
 California (Excluding Los Angeles
                                              24           35           7          17           7       27
 North and West)
 Chicago Disability Processing
                                               2           1            0          1            1          0
 Branch
 Connecticut                                   4           13           0           3           0        9
 Dallas Disability Processing Unit             2            3           4           1           2        0
 Delaware                                      4            0           1           2           0        2
 District of Columbia                          0            0           1           0           0        0
 Georgia                                       4           11           2           7           1       16
 Hawaii                                        1            1           1           3           1        2
 Idaho                                         1            0           1           0           0        2
 Illinois                                      7           12           3          10           2       21
 Indiana                                       9           15           1           4           3       10
 Iowa                                          1            3           0           2           2        3
 Kansas City Federal Disability Unit           1            1           0           2           0        1
 Maryland                                      5            6           4           2           0        8
 Massachusetts                                 4           11           2           4           4        9
 Minnesota                                     3            8           2           0           0        2
 Mississippi                                   2            5           1           4           1       14
 Mississippi Extended Service Team             2            0           1           1           0        5
 Montana                                       2            1           0           2           0        4
 Nebraska                                      0            1           2           2           0        1
 New Jersey                                   18            7           2           4           5       10
 New Mexico                                    1            2           1           4           0        0
 New York Disability Processing
                                               2           2            0          0            0          3
 Branch


SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)        B-34
                 Site                      Title II Cases          Title XVI Cases        Concurrent Cases
                                         Allowance   Denial       Allowance   Denial      Allowance   Denial
 North Dakota                                    1           1            0          0            0          1
 Office of Medical and Vocational
                                                 0           0            0          0            1          1
 Expertise
 Ohio                                           14           11           3          10           3       16
 Oklahoma                                        5            6           2           3           2        5
 Oklahoma Extended Service Team                  0            4           1           0           2        8
 Oregon                                          4           10           0           6           3        5
 Philadelphia Disability Processing
                                                 6           2            1          1            0          5
 Branch
 Puerto Rico                                    12            4           0          0            0        0
 Rhode Island                                    3            2           0          0            0        0
 San Francisco Federal Disability Unit           3            2           0          1            0        5
 South Carolina                                  4           11           0          9            2       11
 South Dakota                                    0            0           1          1            0        2
 South East Disability Processing
                                                 1           1            0          1            1          3
 Branch
 Tennessee                                       6           16           2           6           1       13
 Texas                                          18           37          17          16          14       36
 Utah                                            1            3           0           1           0        2
 U.S. Virgin Islands                             1            0           0           0           0        0
 Virginia                                        1           13           0           4           3       18
 Virginia Extended Service Team                  1            3           1           1           0        5
 Wisconsin                                       4            4           0           0           4        6
 Wyoming                                         1            0           0           0           1        0
                            TOTALS             593          947         181     417             211      951

   Table B–46: Initial Claims by Title, Site, and Determination - Genito-Urinary Cases
                 Site                      Title II Cases          Title XVI Cases        Concurrent Cases
                                         Allowance   Denial       Allowance   Denial      Allowance   Denial
 SDM Prototype Sites                            58           22          25          21          42       32
 Alabama                                         3            2           5           2           3        5
 Alaska                                          0            1           0           0           0        0
 California (Los Angeles North and
                                                 6           1            2          1            1          2
 West)
 Colorado                                        8           1            0          1            3          0
 Louisiana                                       1           1            2          3            5          5
 Michigan                                       10           5            1          4            5          6
 Missouri                                        4           3            2          3            4          2
 New Hampshire                                   1           0            0          0            0          1
 New York                                       12           3           10          3           15          4
 Pennsylvania                                   13           5            3          4            6          7
 SDM II Sites                                   55           19          23          27          42       34



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)          B-35
                  Site                   Title II Cases         Title XVI Cases        Concurrent Cases
                                       Allowance   Denial      Allowance   Denial      Allowance   Denial
 Florida                                      19          8           11           8          20       15
 Guam                                          0          0            1           0           0        0
 Kansas                                        3          0            2           0           3        0
 Kentucky                                      6          2            2           3           5        5
 Maine                                         2          0            0           0           1        0
 Nevada                                        4          1            1           0           3        3
 North Carolina                               11          4            4          11           7       10
 Vermont                                       1          1            0           0           1        0
 Washington                                    9          3            1           1           2        1
 West Virginia                                 0          0            1           4           0        0
 Non-SDM Sites                                47          21          39          21          47       25
 Arizona                                       0           2           1           2           2        0
 Arkansas                                      1           0           0           0           0        2
 Arkansas Extended Service Team                1           1           1           1           1        0
 Baltimore Disability Processing
                                               0          0            0          0            0          1
 Branch
 California (Excluding Los Angeles
                                               5          1            8          0            5          0
 North and West)
 Chicago Disability Processing
                                               0          0            0          0            0          0
 Branch
 Connecticut                                   0          0            0          1            0          0
 Dallas Disability Processing Unit             0          1            2          0            0          0
 Delaware                                      1          0            0          0            0          0
 District of Columbia                          0          0            0          0            2          0
 Georgia                                       1          1            0          1            3          1
 Hawaii                                        4          0            1          0            1          0
 Idaho                                         1          0            1          0            0          0
 Illinois                                      1          1            4          2            4          2
 Indiana                                       2          1            1          1            1          1
 Iowa                                          1          0            0          1            0          0
 Kansas City Federal Disability Unit           0          0            0          0            0          0
 Maryland                                      0          0            2          0            2          0
 Massachusetts                                 0          0            0          0            2          0
 Minnesota                                     1          0            0          0            0          0
 Mississippi                                   0          1            0          2            1          3
 Mississippi Extended Service Team             0          1            0          0            0          0
 Montana                                       0          0            0          0            0          0
 Nebraska                                      1          0            0          1            0          0
 New Jersey                                    2          0            1          1            2          2
 New Mexico                                    0          1            0          0            2          0
 New York Disability Processing
                                               0          0            0          0            0          0
 Branch
 North Dakota                                  0          0            0          0            0          0


SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)       B-36
                 Site                      Title II Cases            Title XVI Cases          Concurrent Cases
                                         Allowance     Denial    Allowance      Denial        Allowance      Denial
 Office of Medical and Vocational
                                                 0          0               0          0                0         0
 Expertise
 Ohio                                            6          2               3          2                3         0
 Oklahoma                                        0          0               0          1                1         1
 Oklahoma Extended Service Team                  1          0               0          0                0         0
 Oregon                                          0          0               0          0                0         2
 Philadelphia Disability Processing
                                                 1          0               0          0                0         0
 Branch
 Puerto Rico                                     2          1               0          0                0         0
 Rhode Island                                    1          0               0          0                1         0
 San Francisco Federal Disability Unit           1          0               0          0                1         0
 South Carolina                                  5          1               1          1                2         2
 South Dakota                                    0          0               0          0                0         0
 South East Disability Processing
                                                 0          0               0          0                1         1
 Branch
 Tennessee                                       3          0               2          0                1         0
 Texas                                           3          5              11          3                6         3
 Utah                                            0          0               0          0                0         0
 U.S. Virgin Islands                             0          0               0          0                0         0
 Virginia                                        2          1               0          0                1         1
 Virginia Extended Service Team                  0          0               0          1                1         0
 Wisconsin                                       0          0               0          0                1         3
 Wyoming                                         0          0               0          0                0         0
                               TOTALS          160          62             87          69              131       91


Sample Cases by Site
                                  Table B–47: Sample Cases by Site
                                                       Back             Genito-
                                                      Disorder          Urinary                 All Cases
                                                       Cases             Cases
                                                                                                        Percentage
                                                                       Number of             Total
                                                      Number of                                          of Total
                        Site                                            Sample              Sample
                                                     Sample Cases                                        Sample
                                                                         Cases               Case
                                                                                                          Cases
 SDM Prototype Sites                                         1,100              200            1,300       33.33%
 Alabama                                                        95               20              115         2.95%
 Alaska                                                          8                1                9         0.23%
 California (Los Angeles North and West)                        45               13               58         1.49%
 Colorado                                                       70               13               83         2.13%
 Louisiana                                                      97               17              114         2.92%
 Michigan                                                      171               31              202         5.18%
 Missouri                                                      124               18              142         3.64%


SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                 B-37
                                                  Back          Genito-
                                                 Disorder       Urinary            All Cases
                                                  Cases          Cases
                                                                                          Percentage
                                                                Number of       Total
                                                 Number of                                 of Total
                      Site                                       Sample        Sample
                                                Sample Cases                               Sample
                                                                  Cases         Case
                                                                                            Cases
 New Hampshire                                            12             2           14        0.36%
 New York                                                269            47          316        8.10%
 Pennsylvania                                            209            38          247        6.33%
 SDM II Sites                                           1,100          200        1,300      33.33%
 Florida                                                  416           81          497      12.74%
 Guam                                                       1            1            2       0.05%
 Kansas                                                    24            8           32       0.82%
 Kentucky                                                 148           23          171       4.38%
 Maine                                                     26            3           29       0.74%
 Nevada                                                    55           12           67       1.72%
 North Carolina                                           238           47          285       7.31%
 Vermont                                                   14            3           17       0.44%
 Washington                                               144           17          161       4.13%
 West Virginia                                             34            5           39       1.00%
 Non-SDM Sites                                          1,100          200        1,300      33.33%
 Arizona                                                   22            7           29       0.74%
 Arkansas                                                  27            3           30       0.77%
 Arkansas Extended Service Team                            30            5           35       0.90%
 Baltimore Disability Processing Branch                    12            1           13       0.33%
 California (Excluding Los Angeles North and
                                                         117            19          136
 West)                                                                                            3.49%
 Chicago Disability Processing Branch                       5            0            5           0.13%
 Connecticut                                               29            1           30           0.77%
 Dallas Disability Processing Unit                         12            3           15           0.38%
 Delaware                                                   9            1           10           0.26%
 District of Columbia                                       1            2            3           0.08%
 Georgia                                                   41            7           48           1.23%
 Hawaii                                                     9            6           15           0.38%
 Idaho                                                      4            2            6           0.15%
 Illinois                                                  55           14           69           1.77%
 Indiana                                                   42            7           49           1.26%
 Iowa                                                      11            2           13           0.33%
 Kansas City Federal Disability Unit                        5            0            5           0.13%
 Maryland                                                  25            4           29           0.74%
 Massachusetts                                             34            2           36           0.92%
 Minnesota                                                 15            1           16           0.41%
 Mississippi                                               27            7           34           0.87%
 Mississippi Extended Service Team                          9            1           10           0.26%
 Montana                                                    9            0            9           0.23%

SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)     B-38
                                                       Back         Genito-
                                                      Disorder      Urinary              All Cases
                                                       Cases         Cases
                                                                                                Percentage
                                                                    Number of       Total
                                                      Number of                                  of Total
                       Site                                          Sample        Sample
                                                     Sample Cases                                Sample
                                                                      Cases         Case
                                                                                                  Cases
 Nebraska                                                       6           2              8         0.21%
 New Jersey                                                    46           8             54         1.38%
 New Mexico                                                     8           3             11         0.28%
 New York Disability Processing Branch                          7           0              7         0.18%
 North Dakota                                                   3           0              3         0.08%
 Office of Medical and Vocational Expertise                     2           0              2         0.05%
 Ohio                                                          57          16             73         1.87%
 Oklahoma                                                      23           3             26         0.67%
 Oklahoma Extended Service Team                                15           1             16         0.41%
 Oregon                                                        28           2             30         0.77%
 Philadelphia Disability Processing Branch                     15           1             16         0.41%
 Puerto Rico                                                   16           3             19         0.49%
 Rhode Island                                                   5           2              7         0.18%
 San Francisco Federal Disability Unit                         11           2             13         0.33%
 South Carolina                                                37          12             49         1.26%
 South Dakota                                                   4           0              4         0.10%
 South East Disability Processing Branch                        7           2              9         0.23%
 Tennessee                                                     44           6             50         1.28%
 Texas                                                        138          31            169         4.33%
 Utah                                                           7           0              7         0.18%
 U.S. Virgin Islands                                            1           0              1         0.03%
 Virginia                                                      39           5             44         1.13%
 Virginia Extended Service Team                                11           2             13         0.33%
 Wisconsin                                                     18           4             22         0.56%
 Wyoming                                                        2           0              2         0.05%
                                       TOTALS               3,300         600           3,900        100%


SSA Data on Allowance Rates and Quality
                Table B–48: National CY 2011 Initial Allowance Rates by Site
                                                                          Initial
                                              Site                      Allowance
                                                                          Rates
                      SDM Prototype Sites                                       35.0%
                      Alabama                                                   29.6%
                      Alaska                                                    46.4%
                      California (Los Angeles North and West)                   39.9%
                      Colorado                                                  35.1%


SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)        B-39
                                                                       Initial
                                          Site                       Allowance
                                                                       Rates
                     Louisiana                                             33.5%
                     Michigan                                              31.7%
                     Missouri                                              33.5%
                     New Hampshire                                         48.7%
                     New York                                              39.9%
                     Pennsylvania                                          34.0%
                     SDM II Sites                                          28.8%
                     Florida                                               30.2%
                     Guam                                                  58.2%
                     Kansas                                                36.9%
                     Kentucky                                              26.4%
                     Maine                                                 31.2%
                     Nevada                                                36.2%
                     North Carolina                                        25.9%
                     Vermont                                               41.5%
                     Washington                                            38.0%
                     West Virginia                                         27.2%
                     Non-SDM Sites                                         33.3%
                     Arizona                                               29.9%
                     Arkansas                                              33.0%
                     Arkansas Extended Service Team                        32.2%
                     Baltimore Disability Processing Branch                36.7%
                     California (Excluding Los Angeles North and
                                                                           34.3%
                     West)
                     Chicago Disability Processing Branch                  43.7%
                     Connecticut                                           30.7%
                     Dallas Disability Processing Unit                     33.0%
                     Delaware                                              34.3%
                     District of Columbia                                  40.1%
                     Georgia                                               27.3%
                     Hawaii                                                38.8%
                     Idaho                                                 34.1%
                     Illinois                                              30.5%
                     Indiana                                               30.5%
                     Iowa                                                  33.3%
                     Kansas City Federal Disability Unit                   35.3%
                     Maryland                                              32.1%
                     Massachusetts                                         41.9%
                     Minnesota                                             34.7%
                     Mississippi                                           24.8%
                     Mississippi Extended Service Team                     23.2%
                     Montana                                               38.2%


SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-40
                                                                       Initial
                                           Site                      Allowance
                                                                       Rates
                     Nebraska                                              36.9%
                     New Jersey                                            45.0%
                     New Mexico                                            31.2%
                     New York Disability Processing Branch                 52.9%
                     North Dakota                                          41.7%
                     Office of Medical and Vocational Expertise            32.0%
                     Ohio                                                  29.7%
                     Oklahoma                                              29.1%
                     Oklahoma Extended Service Team                        26.0%
                     Oregon                                                35.3%
                     Philadelphia Disability Processing Branch             33.1%
                     Puerto Rico                                           64.4%
                     Rhode Island                                          33.7%
                     San Francisco Federal Disability Unit                 37.9%
                     South Carolina                                        27.3%
                     South Dakota                                          40.4%
                     South East Disability Processing Branch               17.6%
                     Tennessee                                             24.5%
                     Texas                                                 36.4%
                     Utah                                                  40.6%
                     U.S. Virgin Islands                                   59.3%
                     Virginia                                              34.8%
                     Virginia Extended Service Team                        27.4%
                     Wisconsin                                             35.5%
                     Wyoming                                               51.5%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-41
             Table B–49: Longitudinal Disability Claims and Appeals Data in CY 2010 16

                                                                           SDM
                                                                                                          Non-
     Level                                               All States      Prototype         SDM II 18
                                                                              17                          SDM

     Initial Pending                                           32,143          3,970           3,719        24,454
     Initial Determinations                                 3,060,699        671,034         531,181     1,858,484
     Initial Allowances                                     1,077,175        235,635         163,572       677,968
     Initial Allowance Rate                                    35.2%          35.1%           30.8%         36.5%
     Initial Denials                                        1,983,524        435,399         367,609     1,180,516
     Percent Appealed to Reconsideration or Hearing            43.8%          47.1%           50.9%         46.8%
     Reconsideration Pending                                   75,926                 83      11,746        64,097
     Reconsideration Determinations                           658,213              4,552     175,497       478,164
     Reconsideration Allowances                                64,119                439      16,068        47,612
     Reconsideration Allowance Rate                             9.7%               9.6%        9.2%         10.0%
     Reconsideration Denials                                  594,094              4,113     159,429       430,552
     Percent of Reconsideration Denials Appealed to
     Hearing                                                    73.1%          80.5%           75.4%         72.1%
     Initial Denials Appealed Directly to Hearing
     (Prototype)                                              209,978        200,238               3         9,737
     Reconsideration Denials Appealed to Hearing              434,026          3,310         120,183       310,533
     Total Appealed to Hearing                                644,004        203,548         120,186       320,270
     Hearing/AC/Court Pending                                 499,403        143,448          97,421       258,534
     Hearing/AC/Court Allowances                               98,544         38,685          16,804        43,055
     Hearing/AC/Court Allowance Rate                           68.1%           64.4%          73.8%         69.7%
     Hearing/AC/Court Denials                                  46,057          21,415          5,961        18,681
     Total Allowances                                       1,239,838        274,759         196,444       768,635
     Overall Allowance Rate                                    49.9%           52.1%          46.5%         50.0%

As shown in Table B–50, in FY 2011, the Quality Assurance (QA) Net Accuracy rates for the
SDM sites ranged from 95.4 percent to 99.2 percent—with most at 97 percent or higher,




16
     SSA, ODP, Titles II and XVI Disability Research Files, July 2012.
17
  SSA reported the longitudinal disability claims and appeals data by State but not individual offices. Therefore,
the data for all California claims is not in the SDM prototype column but is in the Non-SDM column.
18
  SSA did not include information for Guam in the longitudinal disability claims and appeals data. Therefore, the
data for Guam is not in the SDM II column.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                 B-42
compared to the national accuracy rate of 97.6 percent. 19 Also in FY 2011, the Preeffectuation
Review (PER) return rates for the SDM sites ranged from 1.4 percent to 3.9 percent, compared to
the national PER return rate of 2.7 percent. 20

                   Table B–50: National FY 2011 Quality Performance Data by Site
                                                                           QA Net          PER
                                            Site                          Accuracy        Return
                                                                            Rates         Rates
                     SDM Prototype Sites
                     Alabama                                                   98.1%           1.9%
                     Alaska                                                    97.1%           3.3%
                     California (Los Angeles North and West) 21                97.2%           2.8%
                     Colorado                                                  97.8%           2.0%
                     Louisiana                                                 97.4%           3.9%
                     Michigan                                                  98.2%           2.1%
                     Missouri                                                  98.3%           2.9%
                     New Hampshire                                             98.3%           2.7%
                     New York                                                  96.3%           3.9%
                     Pennsylvania                                              97.4%           2.2%
                     SDM II Sites
                     Florida                                                   97.9%           3.6%
                     Kansas                                                    98.4%           1.5%
                     Kentucky                                                  97.9%           2.6%
                     Maine                                                     95.4%           3.1%
                     Nevada                                                    96.9%           2.7%
                     North Carolina                                            97.6%           1.9%
                     Vermont                                                   99.2%           1.4%
                     Washington                                                97.9%           2.3%
                     West Virginia                                             96.7%           3.5%
                     Non-SDM Sites
                     Arizona                                                   95.3%           2.0%
                     Arkansas                                                  98.5%           2.1%
                     California (Excluding Los Angeles North and
                                                                               97.2%           2.8%
                     West)
                     Chicago Disability Processing Branch                      94.3%            N/A
                     Connecticut                                               95.7%           2.9%



19
  OQP performs a QA review on 70 initial allowances and 70 initial denials per State per calendar quarter. See the
Social Security Act § 221(c)(3)(A), § 42 U.S.C. 421(c)(3)(A). This sample ensures statistically valid findings for all
DDSs irrespective of size.
20
     By statute, OQP reviews half of all allowances for PER, which are selected by a predictive model.
21
     These figures are from all DDS offices in California.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                  B-43
                                                                QA Net         PER
                                     Site                      Accuracy       Return
                                                                 Rates        Rates
               Delaware                                             97.7%         2.2%
               District of Columbia                                 96.8%         6.5%
               Georgia                                              97.0%         2.4%
               Hawaii                                               97.3%         1.6%
               Idaho                                                97.8%         2.0%
               Illinois                                             98.0%         2.4%
               Indiana                                              98.5%         3.0%
               Iowa                                                 97.6%         1.8%
               Kansas City Federal Disability Unit                  94.1%          N/A
               Maryland                                             96.9%         2.5%
               Massachusetts                                        98.2%         4.3%
               Minnesota                                            95.2%         1.7%
               Mississippi                                          98.8%         3.1%
               Montana                                              97.3%         2.1%
               Nebraska                                             98.6%         1.6%
               New Jersey                                           97.4%         3.5%
               New Mexico                                           97.2%         1.6%
               New York Disability Processing Branch                95.4%          N/A
               North Dakota                                         97.3%         2.7%
               Ohio                                                 97.5%         2.3%
               Oklahoma                                             97.6%         2.3%
               Oregon                                               98.0%         1.6%
               Philadelphia Disability Processing Branch            93.8%          N/A
               Puerto Rico                                          97.0%         1.5%
               Rhode Island                                         96.8%         2.9%
               San Francisco Federal Disability Unit                96.5%          N/A
               South Carolina                                       97.8%         1.4%
               South Dakota                                         97.7%         2.0%
               South East Disability Processing Branch              91.1%          N/A
               Tennessee                                            97.1%         2.2%
               Texas                                                98.5%         3.1%
               Utah                                                 96.3%         2.1%
               Virginia                                             97.5%         2.2%
               Wisconsin                                            97.5%         1.6%
               Wyoming                                              98.0%         2.3%
               National                                            97.6%         2.7%




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   B-44
Appendix C – PILOT FEEDBACK FROM DISABILITY
             DETERMINATION SERVICES, THE NATIONAL
             ASSOCIATION OF DISABILITY EXAMINERS AND
             THE NATIONAL COUNCIL OF DISABILITY
             DETERMINATION DIRECTORS
To obtain information on the Social Security Administration’s (SSA) Single Decisionmaker
(SDM) pilot, we contacted each of the 20 disability determination services (DDS) pilot sites. 1
Each site provided pilot experience details including SDM model disability examiner authority
basis, determination quality, and benefits. We also contacted the National Association of
Disability Examiners (NADE) and the National Council of Disability Determination Directors
(NCDDD). 2

SDM Authority Designation
Pilot sites reported providing disability examiners with SDM authority based on the individual’s

·     background and experience;
·     determination quality;
·     supervisor’s recommendation;
·     hire date; 3
·     promotional exam; and
·     other criteria. 4




1
 In 1999, SSA began the SDM pilot at 10 DDS sites—referred to as SDM prototype—located in Alabama, Alaska,
California (Los Angeles North and West), Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York,
and Pennsylvania. In California, SDM authority is generally only available for certain field office cases. Later in
1999, SSA expanded the pilot to an additional 10 DDS sites—referred to as SDM II—in Florida, Guam, Kansas,
Kentucky, Maine, Nevada, North Carolina, Vermont, Washington, and West Virginia. SSA, POMS, DI 12015.100
(April 11, 2011).
2
 NADE’s mission is to advance the art and science of disability evaluation. NADE’s membership includes
employees of state DDS offices, as well as personnel from across SSA, attorneys, claimant advocates, and
physicians. NCDDD’s mission is to provide service to persons with disabilities, to promote the interests of the state
operated DDSs, and to represent DDS Directors, their management teams, and staffs.
3
 Sites that provided newly hired disability examiners with SDM authority reviewed these disability examiner’s
determinations.
4
    Other includes disability examiner’s performance appraisal and caseload management.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)                   C-1
For example, one site reported that, to receive SDM authority, the following must occur:
recommendation by supervisor, assessment of program competency via internal quality
assurance case audit, and approval by management. From the start of disability examiner
training, 18 to 24 months of adjudication experience were typically required to qualify as a
disability examiner with SDM authority.

Another site reported, to obtain SDM authority, the disability examiner must have had a
minimum of 3 years’ experience as a Disability Evaluation Specialist; volunteered for the pilot;
had an annual performance evaluation showing that the disability examiner met or exceeded
overall expectations, accuracy goals, and processing goals for the rating period; had his/her
supervisor’s recommendation; and participated in specialized SDM training.

Quality
In addition to Federal and State quality reviews, pilot sites reported other methods used to ensure
disability examiners with SDM authority made disability determinations in accordance with SSA
policy. For example, sites conducted

·     in-line and endline case reviews;
·     100-percent new examiner case reviews; 5 and
·     ongoing training.

For example, one site reported that, during the first 2 years of employment, disability examiners
with SDM authority determinations were under 100-percent review and were reviewed for a
period after introduction of new case types. In addition, disability examiner supervisors conduct
inline reviews of all disability examiners.

Another site reported the DDS had a system of internal end of line, technical, and in-line (mostly
consultative examination and case management) reviews. The DDS culture was that anyone
involved with a case was responsible for ensuring the case was correct. In addition, managers,
quality assurance/technical experts, experienced examiners, as well as MCs were available to
answer questions. The DDS also had an extensive quality and case management Intranet with
links to training and reference materials.

Benefits
Pilot sites reported SDM model benefits, such as

·     improved or unchanged decision accuracy;
·     decreased processing times;



5
    Of the 1,826 SDM sample cases, 903 (49 percent) were reviewed by a supervisor.



SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   C-2
·   decreased administrative costs;
·   improved service to the public;
·   increased disability examiner job satisfaction and morale; and
·   decreased dependency on medical consultants.

For example, one site reported a positive experience with the SDM pilot. Since the SDM pilot’s
institution, this DDS had seen positive results in all performance measures including low
processing times and case administrative cost and high levels of case quality and accuracy. SDM
has had no adverse effect on the performance of the DDS in quality or timeliness of case
adjudication. SDM has resulted in a process that more accurately reflects the concepts and
policies SSA put forth in the process unification initiatives.

Another site reported that in using the SDM model, the DDS has consistently provided excellent
customer service to claimants. The SDM model has afforded the DDS to maintain high accuracy
for initial allowances, while keeping processing time well below the national average and
administering SSA’s disability programs in a cost effective manner.

SDM Pilot Concerns
                                             NADE, NCDDD, and SDM sites support the SDM
                                             pilot’s nation-wide expansion to give every DDS the
                                             same tools for optimizing disability examiner and
      Suggested SDM Model                    MC resources. In addition, these entities suggested
      Improvements                           improvements to the SDM model, such as the
                                             following.

·   Developing metrics and goals to measure the effects of the SDM pilot and enable accurate
    statistics. For example, one site reported the method SSA used to capture SDM data makes it
    difficult to obtain accurate statistics demonstrating SDM authority usage on cases that were
    SDM-eligible. Another site reported that while analyzing available SDM case data, staff
    determined the data were too broad to provide meaningful information of the site’s SDM
    experience.

·   Developing guidelines and training resources to promote uniform SDM processing and foster
    program consistency. For example, some SDM pilot sites require that disability examiners
    pass a test to obtain SDM authority, while other sites grant disability examiners SDM
    authority from the individual’s hire date with 100-percent case review. One pilot site
    suggested SSA provide uniform selection criteria for SDM authority to foster program
    consistency. This site also suggested that SSA develop a list of competencies for disability
    examiners with SDM authority. In addition, these competencies could be used to develop a
    standardized test for disability examiners to obtain SDM authority.

·   Expanding SDM authority to additional disability case types such as continuing disability
    reviews and reconsideration claims. For example, one site offered to pilot this initiative and
    ensure that disability examiners with SDM authority followed all SSA’s policies and

SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   C-3
    procedures when processing claims. Another site commented that disability examiners with
    SDM authority and proper training could accurately and independently decide most cases,
    within statutory limits.

                                          If SSA terminated the SDM pilot, DDSs would incur
                                          additional administrative costs and increased
                                          processing times because MCs would be required to
       Impact of SDM Pilot                review all cases. SDM sites reported they paid MCs
       Termination                        between $26 and $100 per case review and that it
                                          took about 1.5 hours for an MC to review a case.
Besides increased MC costs and processing times, SDM sites reported the following would result
in the loss of SDM authority.

·   Affect disability examiners because of potential job reclassification and lost wages, which
    could lead to attrition and decreased morale. For example, one site reported that disability
    examiners with SDM authority included a pay differential that would be revoked if SSA
    terminated the SDM pilot.

·   Result in the need to increase MC staffing to accommodate increased case reviews. For
    example, one site reported that hiring sufficient MCs would be challenging as some areas
    have a shortage of physicians.

Additionally, NADE and NCDDD reported the loss of SDM authority would result in increased
pending case levels and processing times, higher administrative costs per case, and reduced
disability examiner morale.

Also, as previously mentioned, OCACT’s preliminary estimate indicated significant savings to
the Trust Fund and General Fund if the SDM pilot is discontinued.




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)    C-4
           Appendix D – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM


Date:      July 29, 2013                                                              Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Single Decisionmaker Model – Authority to Make
           Certain Disability Determinations Without a Medical Consultant Signature” (A-01-12-11218) --
           INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SINGLE DECISIONMAKER MODEL – AUTHORITY TO MAKE CERTAIN
DISABILITY DETERMINATIONS WITHOUT A MEDICAL CONSULTANT
SIGNATURE” (A-01-12-11218)

Recommendation

Use the information in this report, as well as any other information (such as OCACT’s estimates)
to make and implement a decision regarding the future of SDM expeditiously.

Response

We agree. We will consider the information in this report, as well as information from other
sources (such as the Office of the Chief Actuary’s estimates), as part of our decision making
process for the future of the Single Decisionmaker Model.




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   D-2
Appendix E – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

Phillip Hanvy, Audit Manager

David Mazzola, Audit Manager

Kevin Joyce, IT Specialist

Katie Toli, Auditor

Katie Greenwood, Senior Auditor

Frank Salamone, Senior Auditor

Brennan Kraje, Statistician




SDM—Authority to Make Certain Disability Determinations Without an MC Signature (A-01-12-11218)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   ·   OIG news                                  In addition, we provide these avenues of
   ·   audit reports
                                                 communication through our social media
                                                 channels.
   ·   investigative summaries
   ·   Semiannual Reports to Congress                Watch us on YouTube
   ·   fraud advisories                              Like us on Facebook
   ·   press releases
                                                     Follow us on Twitter
   ·   congressional testimony
   ·   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
